<html>
<title> - CYBER INSECURITY: HACKERS ARE PENETRATING FEDERAL SYSTEMS AND CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       CYBER INSECURITY: HACKERS 
                    ARE PENETRATING FEDERAL SYSTEMS 
                      AND CRITICAL INFRASTRUCTURE 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                       THREATS, CYBERSECURITY AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2007

                               __________

                           Serial No. 110-26

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-562 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
      ------

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)



































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science, and Technology...     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science, and Technology...     3
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    33
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    36
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................     4
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    42

                               Witnesses
                                Panel I

Mr. Jerry Dixon, Director, National Cyber Security, Division, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. Dave Jarrell, Manager, Critical Infrastructure Protection 
  Program, U.S. Department of Commerce:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Donald Reid, Senior Coordinator for Security Infrastructure, 
  Bureau of Diplomatic security, U.S. Department of State:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Greg Wilshusen, Director, Information Security Issues, 
  Government Accountability Office:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Accompanied by:..................................................
  Mr. David Powner, Director, Information Technology, Government 
    Accounting Office............................................    40

                                Panel II

Mr. Ken Silva, Chief Security Officer, VeriSign:
  Oral Statement.................................................    51
  Prepared Statement.............................................    53
Mr. Aaron Turner, Cybersecurity Strategist, National & Homeland 
  Security, Idaho National Laboratory:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47

                               Appendixes

Appendix A:  Prepared Opening Statements
  The Hon. James R. Langevin.....................................    63
  The Hon. Bennie G. Thompson....................................    64

Appendix B:  Additional Questions and Responses
  Responses from Mr. Jerry Dixon.................................    64


                     CYBER INSECURITY: HACKERS ARE
        PENETRATING FEDERAL SYSTEMS AND CRITICAL INFRASTRUCTURE

                              ----------                              


                        Thursday, April 19, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    the subcommittee met, pursuant to call, at 1:11 p.m., in 
Room 1539, Longworth House Office Building, Hon. James Langevin 
[chairman of the subcommittee] presiding.
    Present: Representatives Langevin, Lofgren, Etheridge, 
Green, Mccall, and Lungren.
    Mr. Langevin. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
``Cyber Insecurity: Hackers are Penetrating Federal Systems and 
Critical Infrastructure.''
    Good afternoon, and welcome to the Subcommittee on Emerging 
Threats, Cybersecurity, Science and Technology hearing on the 
hacking of federal systems and privately owned critical 
infrastructure.
    I would like to begin by thanking the witnesses who appear 
before us today, and I appreciate your testimony today that we 
are about to hear.
    I will focus my remarks this afternoon on our first panel, 
which will discuss the security of information technology on 
the federal level.
    Let me be clear about the threat to our federal systems: I 
believe the infiltration by foreign nationals of federal 
government networks is one of the most critical issues 
confronting our nation. The acquisition of our government's 
information by outsiders undermines our strength as a nation. 
If sensitive information is stolen and absorbed by our enemies, 
we are strategically harmed.
    Over time, the theft of critical information from 
government servers could cost the United States our advantage 
over our adversaries. This is a most critical issue that we 
cannot afford to ignore any longer. Today we are hearing from 
several agencies that have experienced significant cyber 
attacks against their systems. These are not the only agencies 
experiencing problems. They are simply the only attacks that 
have been made public to this point.
    In October 2006, hackers operating through Chinese Internet 
servers launched an attack on the computer system of the Bureau 
of Industry and Security, BIS, at the Department of Commerce. 
The hackers penetrated the computers with a ``rootkit'' 
program, a form of software that allows attackers to mask their 
presence and then gain privileged access to the system.
    In reviewing the Commerce testimony for today's hearing, I 
am troubled by several things. Though Commerce first learned on 
July 13 that its computers were infected, this was not the date 
of initial infection. In fact, Commerce has no idea how long 
the attackers were actually inside their systems, nor do they 
know if the attackers are still within their systems.
    As far as I can tell from the responses, rogue tunnel 
audits, authentication changes, and complete machine rebuilds 
have not occurred. We are also not sure how much information 
was lost. Though Commerce tells us that data was not lost, data 
can easily be copied and sent outside through the Internet. So 
there is a difference here, and I want to make that 
distinction, between lost and information that is copied by 
those who have penetrated the system.
    Unfortunately, Commerce isn't the only federal agency with 
a problem. Prior to the Commerce hack, in June 2006, hackers 
accessed networks at several State Department locations, 
including its Washington headquarters, and inside the Bureau of 
East Asian and Pacific Affairs. They did so by sending a 
socially engineered email to an employee. The employee opened 
the Microsoft Word document attachment, which contained an 
exploit code.
    I am concerned about the temporary fix that State put in 
place. Security authorities that I have spoken with are highly 
dubious about the success of ``temporary wrappers,'' as they 
are called, the kind which State had to put in place due to the 
absence of a Microsoft patch for several months. Most targeted 
attacks involve rootkits, which cannot be detected or stopped 
by a temporary wrapper. I don't understand, therefore, why 
State wouldn't take its entire system offline for a full kernel 
inspection.
    In reading State's testimony, I believe they made the 
determination that accessibility to data is more important than 
confidentiality and integrity. If State really valued the 
latter, they would have taken the system offline and done a 
full wash. Both agencies insist that these attacks are less 
serious because they involve unclassified servers. I disagree.
    As you are no doubt aware, FISMA requires federal agencies 
to track down and identify every device and system on an 
agency's network, and to make sure that the network topology is 
fully described. As we learned last week, both State and 
Commerce received F's in the latest round of FISMA scores.
    According to page 10 of the fiscal year 2006 FISMA report 
to Congress, the inspector general at State reported that the 
agency did not complete at least 50 percent of its system 
inventory. The I.G. at Commerce certifies that at least 96 
percent of Commerce systems have been inventoried.
    I will suggest to our panelists today that if they can't 
certify their network topologies to FISMA, then they can't know 
for certain that these incidents don't involve the classified 
networks. Furthermore, just because attacks are occurring on 
the unclassified network does not mean this isn't sensitive 
information. Information that may be deemed classified in the 
future may first appear in an unclassified network.
    But this isn't just about Commerce and State. I have to say 
that I am disappointed and troubled with the Department of 
Homeland Security's progress in securing cyberspace. The 
department is the agency responsible for securing the nation's 
critical infrastructure, and yet they received a D this year on 
its FISMA score. It is the first time since 2003 that the 
department did not receive an F, so I guess we are making some 
progress.
    Our issue today is with the NCSD, but I will be honest with 
you: I don't know how the department thinks it is going to lead 
this nation in securing cyberspace when it can't even secure 
its own networks. Not only are these grades embarrassing, but 
they are dangerous. Think about all of the critical information 
the department is keeping on its networks. I can assure 
everyone here that the kinds of questions that have been asked 
to the State Department and the Commerce Department will be 
asked of DHS as well.
    With regard to NCSD's response to these incidents, I have a 
few thoughts. It is my understanding that NCSD does not 
adequately share commonalities of attack information with other 
agencies that may be at risk. For instance, an agency like 
Commerce or State that has been hacked by a ``zero-day 
exploit'' will provide this information to the NCSD. But the 
NCSD can't just sit on that information. We need the NCSD to be 
the group that fuses information from across the federal 
government together and distributes the product for agencies to 
use across government.
    Unfortunately, I understand that NCSD does not have 
protocols in place to share this kind of information with other 
agencies in the federal government or perform that level of 
work. This subcommittee will continue to monitor these issues 
to ensure that information sharing and technical response 
improves.
    In closing, I think these incidents have opened a lot of 
eyes in the halls of Congress. We don't know the scope of our 
networks. We don't know who is inside our networks. We don't 
know what information has been stolen. We need to get serious 
about this threat to our national security.
    That is the end of my statement.
    The chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, for an opening 
statement.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing. It is a very, 
very important issue. It is an issue that, in my view, is 
overlooked many times. It poses a very significant threat to 
this nation. In my judgment, it can cause far greater 
destruction than, say, a dirty bomb which we tend to focus on 
quite a bit, if you think about the networks, the cyber 
systems, the power grids being shut down in this nation.
    We know that our own military has tremendous capability and 
capacity to do these things. Imagine that capability in the 
hands of a rogue nation or a terrorist state, and what havoc 
they could wreak upon this country. There is espionage hacking, 
stealing intellectual property, and then there is a potential 
terrorist attack. These are all threats I take very seriously 
as a great threat to this nation.
    Again, I want to thank you for holding this hearing on the 
vulnerabilities of both government and private computer 
systems. They are networks that are vulnerable to malicious 
hacking. I agree the issue of cyber security has matured past 
the point of talking about it in generalities and sweeping 
policy statements and rhetoric. Now is the time to start 
focusing on specific issues such as hacking into government 
networks.
    As everyone is aware, we depend on information technology 
every day. We are aware of some of the more widely known 
problems that face our computer networks, from spam and viruses 
to online attempts at identity theft. These problems cause us 
to waste resources and time, but to a large extent they do not 
pose a security threat. But hacking into computer networks, 
especially government computer networks, does create a very 
real security threat, specifically a threat to our ability to 
rely upon information that we have in those networks.
    Our country and our government depend on information. If 
that information becomes untrustworthy because it is on a 
vulnerable computer network, governmental services and 
institutions could grind to a halt. Some say that as long as 
classified network remain protected, that national security 
will be preserved. Unfortunately, national security depends on 
more than just classified information.
    For example, if Medicare records are compromised, the well-
being of a large portion of our citizens would be at risk. In a 
similar way, if computers at the IRS were compromised, the 
resulting unreliability of tax records could create an 
administrative nightmare for many Americans. In addition, there 
are industrial control systems that if compromised could have a 
very direct and dangerous result.
    Control systems are those that control facilities and 
processes in multiple industries across the country, such as 
dam spillways and electric power systems. Gaining control of 
these systems could create as much damage as a weapon of mass 
destruction.
    I look forward to working with you, Mr. Chairman, to take a 
more comprehensive look at the threats against control systems 
and the viability of securing these critical infrastructure 
systems. While this hearing is focused on the issue of hacking 
into computer networks, I hope that we can also clarify the 
role and responsibility of the Department of Homeland Security 
regarding these issues.
    Should the department be responsible for securing all of 
the government's computer networks? Or should it be merely a 
point of coordination for departmental computer security 
offices? I believe the department should be the point of 
leadership for cybersecurity throughout the country and lead by 
example, by making its networks the most secure and reliable in 
the country.
    The department already has programs to monitor the traffic 
on some government networks. I look forward to a better 
description of them by Mr. Dixon.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Langevin. I thank the gentleman.
    I ask unanimous consent that the gentlelady from 
California, Ms. Lofgren, be recognized for the purpose of an 
opening statement.
    Ms. Lofgren. Thank you very much, Mr. Chairman. I will be 
brief, as I have a conflict in about 20 minutes.
    I will just first thank you for holding this hearing. I 
think it is very important and that we begin to pay attention 
once again to the cybersecurity issues that I think have been 
neglected for the last couple of years.
    I have constituents here in the next panel, VeriSign. I 
wanted to welcome them to the capitol and for their statement--
I have read all the statements--and to note whether this could 
be addressed by the witnesses. In the VeriSign statement--there 
is no page numbers on it--but describing Project Titan. There 
is a discussion of the concern about a cyber attack coupled 
with a physical attack, which is something that has been of 
great concern to me over the years.
    I am interested in exploring that, either in this hearing, 
or if more appropriate, in a more discrete setting, but I think 
that is something that we need to pay some considerable 
attention to. I also note that the current system which 
provides letter grades seems to have no connection whatsoever 
to the actual security of the agency. That is something that I 
hope that we can visit.
    So that we will not delay the testimony, I would just 
simply thank the chairman for taking me out of order and 
allowing me to make those comments. I yield back.
    Mr. Langevin. I thank the gentlelady.
    Other members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    I now welcome our first panel of witnesses.
    Our first witness is Mr. Gregory Wilshusen, who is the 
director of information security issues at GAO, where he leads 
information security-related issues and audits of the federal 
government. He has over 26 years of auditing, financial 
management and information systems experience. He is a 
certified public accountant, certified internal auditor, and 
certified information systems auditor. He holds a B.S. degree 
in business administration and accounting from the University 
of Missouri, and an M.S. in information management from George 
Washington University School of Engineering and Applied 
Sciences.
    Thank you for being here.
    Our second witness is Mr. Don Reid, the senior coordinator 
for security infrastructure, Bureau of Diplomatic Security. Mr. 
Reid oversees the department's information and personnel 
security suitability programs, and key aspects of its network 
cybersecurity program. Mr. Reid's information security 
responsibilities include the management of classified 
information programs, oversight of the department's Special 
Security Office, the operation of the Industrial Security 
Program, and the investigation and resolution of security 
violations.
    Mr. Reid served in the United States Air Force for 30 
years. He earned an undergraduate degree in criminology from 
the University of Maryland, his master's degree in Middle East 
studies from the University of Utah, and completed a senior 
managers in government seminar at Harvard's Kennedy School of 
Government.
    Our third witness is Mr. Dave Jarrell, the critical 
infrastructure protection manager at the Department of 
Commerce. He has focused his 27-year career as a security 
professional, where his focus remains on critical 
infrastructure protection, contingency of operations planning, 
crisis and disaster recovery, I.T. education for federal agency 
staff, and I.T. security incident response and readiness.
    His first detail while in the United States Marine Corps 
was the protection of the president while traveling aboard Air 
Force One. It was while assigned to HMX-One Marine Helicopter 
Squadron that David received a medal for saving the life of an 
infant child. In his free time, Mr. Jarrell volunteers as a 
firefighter emergency medical technician and fire incident and 
command officer, where his most senior assignment was that of 
fire captain.
    Thank you for being here.
    Our final witness is Mr. Jerry Dixon, the director of the 
National Cyber Security Division of the Department of Homeland 
Security. Mr. Dixon leads the national effort to protect 
America's cyber infrastructure and identify cyber threats. He 
works collaboratively and facilitates strategic partnerships 
with stakeholders in the private sector, private industry and 
international arena. Mr. Dixon was appointed director of the 
NCSD on January 7, 2007.
    Before joining NCSD, Mr. Dixon was the founding director of 
the Internal Revenue Service's computer security instant 
response capability. In this role, Mr. Dixon led the 
operational cybersecurity capability for the IRS and developed 
their ability to detect and respond to protect American 
taxpayers' private information from security attacks. Mr. Dixon 
has also served as director of information security for 
Marriott International, a private-sector company where he led 
cybersecurity planning, security architecture, and security 
operations.
    Gentlemen, again I want to thank you for being here.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I will now ask each witness to summarize their statement 
for 5 minutes, beginning with Mr. Wilshusen.
    Welcome.

  STATEMENT OF GREG WILSHUSEN, DIRECTOR, INFORMATION SECURITY 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Mr. Chairman and members of the 
subcommittee, thank you for inviting me to testify at today's 
hearing on information security over federal systems. I am 
joined by David Powner, director of information technology at 
GAO.
    For many years, GAO has reported weaknesses in information 
security, a widespread problem with potentially devastating 
consequences such as intrusions by malicious users, compromised 
networks, and the theft of personally identifiable information. 
In reports to the Congress since 1997, GAO has identified 
information security as a government-wide high-risk issue.
    Today, I will discuss the weaknesses that persist in 
information security controls at federal agencies, the 
reporting of security incidents, and the efforts by the 
Department of Homeland Security to develop a cyber-threat 
analysis and warning capability.
    Mr. Chairman, serious information security weaknesses 
continue to threaten the confidentiality, integrity, and 
availability of federal systems and information. Twenty-one of 
the 24 major agencies were cited by their inspectors general or 
independent auditors for significant weaknesses in information 
systems control.
    For example, 18 agencies do not have adequate access 
controls in place to ensure that only authorized individuals 
could access, view or manipulate data. Even basic controls were 
not consistently implemented. For example, well-known vendor 
supply passwords were not replaced. Users were granted access 
privileges that exceeded their need. Sensitive information was 
not always encrypted, and adequate audit logs were not always 
maintained.
    Agencies also lacked effective physical security controls. 
For instance, many of the data losses that occurred at federal 
agencies over the past few years were a result of either 
physical thefts or improper safeguarding of laptops and other 
portable devices. An underlying cause for these reasons is that 
agencies have not fully implemented information security 
programs required by the Federal Information Security 
Management Act, or FISMA.
    These weaknesses persist even as many agencies report 
increased implementation of program activities. However, until 
agencies effectively and fully implement these programs, 
federal data systems will not be sufficiently safeguarded to 
prevent unauthorized use, disclosure and modification.
    In 2006, agencies reported a record number of security 
incidents to the United States Computer Emergency Readiness 
Team, or US-CERT, which is a unit within the Department of 
Homeland Security responsible for collecting such information. 
Although agencies have noted improvements in incident reporting 
procedures, inconsistencies exist across agencies.
    For example, although one agency reported more than 800 
incidents annually internally to law enforcement authorities, 
it did not report them to US-CERT. I.G.s have also reported 
weaknesses in agencies' incident reporting procedures.
    In addition to its activities with US-CERT, the Department 
of Homeland Security has taken steps towards addressing our 
recommendations for developing a strategic analysis and warning 
capability for cyber attacks. It has established various 
initiatives to enhance analytical capabilities such as 
promoting intelligence sharing through the US-CERT, and 
deploying situational awareness tools at selected federal 
agencies.
    We believe that with a robust, effective and strategic 
analysis or warning capability, the department can help 
agencies to reduce risks associated with security incidents. 
However, it has not yet fully implemented our recommendations, 
particularly in implementing such a capability beyond the 
federal government.
    In summary, although agencies report increased compliance 
with security program activities required by FISMA, serious 
weaknesses persist at federal agencies and reported incidents 
are rising. Until agencies fully implement their information 
security programs, they will be exposed to increased risk of 
cyber attacks.
    The Department of Homeland Security can help agencies 
mitigate these risks by developing and implementing a strategic 
analysis and warning capability.
    Mr. Chairman, this concludes my opening statement. Mr. 
Powner and I will be happy to answer questions.
    [The statement of Mr. Wilshusen follows:]

               Prepared Statement of Gregory C. Wilshusen

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to join in today's hearing to discuss 
information security over federal systems. Information security is a 
critical consideration for any organization that depends on information 
systems and computer networks to carry out its mission or business. It 
is especially important for government agencies, where the public's 
trust is essential. The need for a vigilant approach to information 
security is demonstrated by the dramatic increase in reports of 
security incidents, the wide availability of hacking tools, and steady 
advances in the sophistication and effectiveness of attack technology. 
Proper safeguards are essential to protect systems from attackers 
attempting to gain access and obtain sensitive information, commit 
fraud, disrupt operations, or launch attacks against other systems.
    For many years, we have reported that poor information security is 
a widespread problem with potentially devastating consequences. In 
reports to Congress since 1997, we have identified information security 
as a governmentwide high-risk issue.\1\ Concerned by reports of 
significant weaknesses in federal computer systems, Congress passed the 
Federal Information Security Management Act (FISMA) of 2002,\2\ which 
permanently authorized and strengthened the information security 
program, evaluation, and annual reporting requirements for federal 
agencies.
---------------------------------------------------------------------------
    \1\ GAO, High-Risk Series: An Update, GAO-07-310 (Washington, D.C.: 
January 2007).
    \2\ FISMA was enacted as title III, E-Government Act of 2002, Pub. 
L. 107-347, 116 Stat. 2946 (Dec. 17, 2002).
---------------------------------------------------------------------------
    In our testimony today, we will summarize (1) the continued 
weaknesses in information security controls at federal agencies, (2) 
federal agencies' reporting of information security incidents, and (3) 
efforts by the Department of Homeland Security (DHS) to develop a cyber 
threat warning and analysis capability. In preparing for this 
testimony, we relied on our previous reports on information security at 
federal agencies and the challenges faced by DHS in fulfilling its 
cybersecurity responsibilities. We also analyzed agencies' Inspector 
General (IG) reports pertaining to information security; congressional 
reports; the 24 major federal agencies' FISMA reports for fiscal years 
2004, 2005, and 2006; the performance and accountability reports for 
those agencies; and the Office of Management and Budget's FISMA 
guidance and mandated annual reports to Congress. The work on which 
this testimony is based was performed in accordance with generally 
accepted government auditing standards.

Results in Brief
    Significant information security weaknesses continue to place 
federal agencies at risk. In their fiscal year 2006 financial statement 
audit reports, 21 of 24 major agencies cited information security 
control weaknesses. An underlying cause for these weaknesses is that 
agencies have not fully implemented agencywide information security 
programs. These weaknesses persist even as many agencies report 
increased implementation of information security program activities. 
However, until agencies effectively and fully implement agencywide 
information security programs, federal data and systems will not be 
sufficiently safeguarded to prevent unauthorized use, disclosure, and 
modification.
    In 2006, agencies reported a record number of information security 
incidents to US-CERT (Computer Emergency Readiness Team)--the DHS unit 
responsible for collecting such information. At the same time, although 
agencies have noted improvements in incident reporting procedures, 
inconsistencies exist across agencies. For example, one agency reported 
no incidents to US-CERT, although it reported more than 800 incidents 
internally and to law enforcement authorities. IGs have also reported 
weaknesses in agencies' incident reporting procedures.
    In addition to its activities with US-CERT, DHS has taken steps 
towards addressing prior recommendations for developing a strategic 
analysis and warning capability for cyber attacks. Specifically, DHS 
has established various initiatives to enhance its analytical 
capabilities, including intelligence sharing through US-CERT and 
situational awareness tools at selected federal agencies. We believe 
that with continued progress in addressing strategic analysis and 
warnings, US-CERT can further agencies' efforts to reduce risks 
associated with incidents. However, DHS has not yet fully implemented 
our original recommendations, particularly in implementing such a 
capability beyond the federal environment.

Background
    Virtually all federal operations are supported by automated systems 
and electronic data, and agencies would find it difficult, if not 
impossible, to carry out their missions and account for their resources 
without these information assets. Hence, the degree of risk caused by 
security weaknesses is high. For example, resources (such as federal 
payments and collections) could be lost or stolen, data could be 
modified or destroyed, and computer resources could be used for 
unauthorized purposes or to launch attacks on other computer systems. 
Sensitive information, such as taxpayer data, Social Security records, 
medical records, and proprietary business information could be 
inappropriately disclosed, browsed, or copied for improper or criminal 
purposes. Critical operations could be disrupted, such as those 
supporting national defense and emergency services. Finally, agencies' 
missions could be undermined by embarrassing incidents, resulting in 
diminished confidence in their ability to conduct operations and 
fulfill their fiduciary responsibilities.
    Recognizing the importance of securing federal systems and data, 
Congress passed FISMA, which set forth a comprehensive framework for 
ensuring the effectiveness of security controls over information 
resources that support federal operations and assets. FISMA also 
defined several public sector responsibilities that have been assumed 
by US-CERT, a partnership between DHS and the public and private 
sectors that was established in 2003 to coordinate defense against and 
responses to cyber attacks across the nation.\3\ US-CERT's 
responsibilities include compiling and analyzing information about 
incidents that threaten information security and providing timely 
technical assistance regarding security incidents.
---------------------------------------------------------------------------
    \3\ FISMA charged the Director of OMB with ensuring the operation 
of a federal information security center. The required functions are 
performed by US-CERT, which was established to aggregate and 
disseminate cybersecurity information to improve warning and response 
to incidents, increase coordination of response information, reduce 
vulnerabilities, and enhance prevention and protection.

Significant Weaknesses Continue to Place Federal Agencies at Risk
    Significant weaknesses continue to threaten the confidentiality, 
integrity and availability of federal information and information 
systems. In their fiscal year 2006 financial statement audit reports, 
21 of 24 major agencies indicated that deficient information security 
controls were either a reportable condition \4\ or material weakness 
(see fig. 1).\5\
---------------------------------------------------------------------------
    \4\ Reportable conditions are significant deficiencies in the 
design or operation of internal control that could adversely affect the 
entity's ability to record, process, summarize, and report financial 
data consistent with the assertions of management in the financial 
statements.
    \5\ A material weakness is a reportable condition that precludes 
the entity's internal control from providing reasonable assurance that 
misstatements, losses, or noncompliance material in relation to the 
financial statements or to stewardship information would be prevented 
or detected on a timely basis.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These persistent weaknesses appear in the five major categories of 
information system controls: (1) access controls, which ensure that 
only authorized individuals can read, alter, or delete data; (2) 
configuration management controls, which provide assurance that only 
authorized software programs are implemented; (3) segregation of 
duties, which reduces the risk that one individual can independently 
perform inappropriate actions without detection; (4) continuity of 
operations planning, which provides for the prevention of significant 
disruptions of computer-dependent operations; and (5) an agencywide 
information security program, which provides the framework for ensuring 
that risks are understood and that effective controls are selected and 
properly implemented. Figure 2 shows how many of the agencies had 
weaknesses in these five areas.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Access Controls Were Not Adequate
    A basic management control objective for any organization is to 
protect data supporting its critical operations from unauthorized 
access, which could lead to improper modification, disclosure, or 
deletion of the data. Access controls, which are intended to prevent, 
limit, and detect unauthorized access to computing resources, programs, 
information, and facilities, can be both electronic and physical. 
Electronic access controls include use of passwords, access privileges, 
encryption, and audit logs. Physical security controls are important 
for protecting computer facilities and resources from espionage, 
sabotage, damage, and theft.
    Our analysis of IG, agency, and our own reports uncovered that 
agencies did not have adequate access controls in place to ensure that 
only authorized individuals could access or manipulate data. Of the 24 
major agencies, 18 had access control weaknesses. Such weaknesses 
included not replacing well-known vendor-supplied passwords, permitting 
excessive access privileges that users did not need to perform their 
jobs, not encrypting sensitive information, and not creating or 
maintaining adequate audit logs. Agencies also lacked effective 
physical security controls. For instance, many of the data losses that 
occurred at federal agencies over the past few years were a result of 
physical thefts or improper safeguarding of systems, including laptops 
and other portable devices.

Shortcomings Existed in Other Controls
    In addition to access controls, other important controls should be 
in place to protect the confidentiality, integrity, and availability of 
information. These controls include policies, procedures, and 
techniques addressing configuration management to ensure that software 
patches are installed; appropriately segregating incompatible duties; 
and establishing service continuity planning. Weaknesses in these areas 
increase the risk of unauthorized use, disclosure, modification, or 
loss of information.
    Federal agencies demonstrated weaknesses in these control areas. 
For example, several agencies did not always consistently install 
critical software patches in a timely manner, segregate duties such as 
security and system administration, or adequately update and test 
contingency plans.

Agencywide Security Programs Were Not Fully Implemented
    An underlying cause for the information security weaknesses 
identified at federal agencies is that they have not yet fully 
implemented agencywide information security programs. An agencywide 
security program provides a framework and continuing cycle of activity 
for managing risk, developing security policies, assigning 
responsibilities, promoting awareness, monitoring the adequacy of the 
entity's computer-related controls through security tests and 
evaluations, and implementing remedial actions as appropriate. Without 
a well-designed program, security controls may be inadequate; 
responsibilities may be unclear, misunderstood, and improperly 
implemented; and controls may be inconsistently applied. Such 
conditions may lead to insufficient protection of sensitive or critical 
resources.
    In their annual FISMA reports for fiscal year 2006, agencies 
reported increased compliance in several security program elements 
required by the law or federal policy. For example, agencies reported 
increases in the percentages of systems with assigned risk levels, 
employees receiving security awareness training, systems that have been 
certified and accredited \6\ and systems whose security controls were 
tested and evaluated.
---------------------------------------------------------------------------
    \6\ OMB requires that agency management officials formally 
authorize their information systems to process information and accept 
the risk associated with their operation. This management authorization 
(accreditation) is to be supported by a formal technical evaluation 
(certification) of the management, operational, and technical controls 
established in an information system's security plan.
---------------------------------------------------------------------------
    However, our reports and those of agency IGs indicate that at least 
18 of the 24 major agencies had not fully implemented agencywide 
programs. For example, agencies often did not effectively ensure that 
all employees and contractors, including those with significant 
information security responsibilities, received sufficient training. 
Also, 10 IGs rated the quality of their agencies' certification and 
accreditation process as ``poor'' or ``failing'' and continued to 
identify specific weaknesses with the process, such as incomplete risk 
assessments and security plans. We have also identified shortcomings in 
agencies' efforts in testing and evaluating the effectiveness of their 
information security controls. In 2006, we reported that agencies had 
not adequately designed and effectively implemented policies for 
performing such tests and evaluations.\7\ Policies often did not 
include elements important for performing effective testing. In 
addition, at agencies where we examined the effectiveness of security 
controls, we found that they did not identify many of the 
vulnerabilities we identified on their systems. Further, for case 
studies of 30 systems at six agencies, weaknesses included insufficient 
testing documentation, inadequately defined assessment methods, 
inadequate security testing, and lack of remedial actions included in 
testing plans. Finally, for 16 of 24 major agencies, IGs were not able 
to provide assurance that their agencies almost always incorporated 
weaknesses for all systems into their remediation plans. Our reviews 
have also reported that weaknesses were not always resolved as 
reported, and agencies' remedial action plans did not identify 
resources necessary to correct weaknesses and were not always updated.
---------------------------------------------------------------------------
    \7\ GAO, Information Security: Agencies Need to Develop and 
Implement Policies for Periodic Testing, GAO-07-65 (Washington, D.C.: 
Oct. 20, 2006).
---------------------------------------------------------------------------
    As a result, agencies do not have reasonable assurance that 
controls are implemented correctly, operating as intended, or producing 
the desired outcome with respect to meeting the security requirements 
of the agency. Furthermore, agencies may not be fully aware of the 
security control weaknesses in their systems, thereby leaving their 
information and systems vulnerable to attack or compromise. Until 
agencies effectively and fully implement agencywide information 
security programs, federal data and systems will not be adequately 
safeguarded to prevent unauthorized use, disclosure, and modification.

Incident Reporting Varies Across Agencies
    Although strong controls may not block all intrusions and misuse, 
organizations can reduce the associated risks if they take steps to 
detect and respond to them before significant damage occurs. Accounting 
for and analyzing security problems and incidents are also effective 
ways for an organization to improve its understanding of security 
threats and potential costs of security incidents, as well as 
pinpointing vulnerabilities that need to be addressed so that they are 
not exploited again. When incidents occur, agencies are to notify the 
federal information security incident center--US-CERT.
    According to the US-CERT annual report for fiscal year 2006, 
federal agencies reported a record number of incidents, with a notable 
increase in incidents reported in the second half of the year. As 
figure 3 shows, since 2005, the number of incidents reported to US-CERT 
increased in every category except for malicious code. Further, a 2006 
report by the House Committee on Government Reform illustrated that 
agencies have a wide range of incidents involving loss or theft and 
privacy breaches.\8\ The report further indicates that the loss of 
personally identifiable information occurs governmentwide and is not 
limited to the well-publicized incident at the Department of Veterans 
Affairs (which involved information on about 26.5 million veterans and 
active duty military personnel).
---------------------------------------------------------------------------
    \8\ Committee on Government Reform, U.S. House of Representatives, 
Staff Report: Agency Breaches Since January 1, 2003 (Washington, D.C.: 
Oct. 13, 2006).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Although agencies have noted many improvements in incident 
reporting procedures, there are still inconsistencies in reporting at 
various levels. For example, one agency reported no incidents to US-
CERT, although it reported more than 800 incidents internally and to 
law enforcement authorities. Several IGs also noted specific weaknesses 
in incident procedures such as components not reporting incidents 
reliably, information being omitted from incident reports, and 
reporting time requirements not being met. Without properly accounting 
for and analyzing security problems and incidents, agencies risk losing 
valuable information needed to prevent future exploits and understand 
---------------------------------------------------------------------------
the nature and cost of threats directed at them.

DHS Is Acting to Implement GAO Recommendations on Strategic Analysis 
and Warning, But More Actions Needed
    Strategic analysis and warning is an essential element of assisting 
agencies in addressing information security incidents. We have 
previously reported that developing and enhancing a national cyber 
analysis and warning capability is a key DHS cybersecurity 
responsibility.\9\ Over the last several years, we have made 
recommendations to DHS--as the nation's focal point for cyber critical 
infrastructure protection--to develop a strategic analysis and warning 
capability for addressing cyber attacks.\10\ Accordingly, we 
recommended that responsible executive branch officials and agencies 
establish a capability for strategic analysis of computer-based 
threats, including developing a methodology, acquiring expertise, and 
obtaining infrastructure data.
---------------------------------------------------------------------------
    \9\ GAO, Critical Infrastructure Protection: Department of Homeland 
Security Faces Challenges in Fulfilling Cybersecurity Responsibilities, 
GAO-05-434 (Washington, D.C.: May 26, 2005).
    \10\ GAO, Critical Infrastructure Protection: DHS Leadership Needed 
to Enhance Cybersecurity, GAO-06-1087T (Washington, D.C.: Sept. 13, 
2006).
---------------------------------------------------------------------------
    DHS has taken steps towards addressing our recommendations. As we 
reported in 2005, DHS established various initiatives to enhance its 
analytical capabilities, including intelligence-sharing through US-CERT 
and situational awareness tools through the US-CERT Einstein program at 
selected federal agencies. The Einstein Program provides an automated 
process for collecting, correlating, analyzing, and sharing computer 
security information across the federal civilian government. Einstein 
is currently deployed to nine federal agencies; US-CERT plans to deploy 
Einstein to an additional 10 to 15 agencies in fiscal year 2008, with a 
goal of deploying it to all cabinet level and critical independent 
federal agencies. According to DHS officials, Einstein has greatly 
reduced the time for the federal government to gather and share 
critical data on computer security risks (from 5 to 7 days to 4 to 5 
hours). Further, the officials stated that Einstein has the potential 
to reduce data collection and information sharing to under 2 hours, 
allowing for vast improvements in governmental cyber response and 
recovery times. If properly implemented and expanded as planned, DHS's 
efforts in this program could strengthen its cyber threat analysis and 
warning capability. However, DHS has not yet fully implemented our 
original recommendations, particularly in implementing such a 
capability beyond the federal environment.
    In summary, although agencies report increased compliance with 
security program activities required by FISMA and federal policy, 
serious weaknesses persist at federal agencies, and reported incidents 
are rising. The weaknesses exist, in part, because agencies have not 
fully implemented their information security programs. Until such 
programs are fully implemented, agencies will be at increased risk of 
exposure to cyber attacks. As agencies report record numbers of 
incidents, inconsistencies in reporting persist. With continued 
progress in addressing strategic analysis and warnings, DHS's US-CERT 
can help agencies mitigate the risk associated with incidents.
    Mr. Chairman, this concludes our statement. We would be happy to 
answer any questions at this time.

    Mr. Langevin. Thank you very much.
    Mr. Reid?

   STATEMENT OF DONALD REID, SENIOR COORDINATOR FOR SECURITY 
INFRASTRUCTURE, BUREAU OF DIPLOMATIC SECURITY, U.S. DEPARTMENT 
                            OF STATE

    Mr. Reid. Thank you, Mr. Chairman, Congressman McCaul and 
Congressman Etheridge. I am Donald Reid, the senior coordinator 
for security infrastructure, Bureau of Diplomatic Security at 
the Department of State. I am privileged to have this 
opportunity to testify before the subcommittee about a cyber 
intrusion we experienced at the department last spring.
    Before discussing this intrusion in detail, I would like to 
inform the subcommittee generally how the State Department has 
structured its information technology assets to deal with cyber 
threats. The chief information officer employs a strategic 
layered approach to risk management of our information and 
information assets. This security strategy, which we call 
``defense in depth,'' provides the department multiple levels 
of defense and protection through a matrix of operational, 
technical and managerial security controls.
    We focus on identifying and mitigating emerging threats 
because of our overseas exposure. Our architecture includes 
requisite perimeter security tools and devices, virus detection 
and response capability, an effective patch management program, 
network operations and traffic flow analysis, intrusion 
detection and response capability, security configuration 
controls, and compliance verification, to name a few.
    At each of our domestic and overseas locations, we employ 
U.S.-citizen information systems security officers. At 10 
overseas locations, we also have highly trained cybersecurity 
engineers. It is worth noting that the cybersecurity team at 
State won the National Security Agency's prestigious Frank B. 
Rowlett Award for its organizational excellence and information 
assurance in 2005, a first for the State Department.
    Now, let me provide you some details about our cyber 
intrusion last year. In this open session, I will describe how 
the department responded as a team with our community of 
partners to a sophisticated attack, while taking care to avoid 
those specifics that would make it easier to harm government 
systems in the future.
    In late May 2006, a socially engineered e-mail was sent to 
an employee in the East Asia Pacific region. The e-mail 
appeared to be legitimate and contained a Word document 
attachment of a congressional speech on a topic germane to this 
region of the world. Later analysis confirmed the attachment 
contained an exploit code hidden within a known Microsoft 
application for which there was no readily available security 
patch.
    Once the recipient clicked on the attachment, the embedded 
malicious code established backdoor communications outside the 
department's network via a Trojan Horse. This external 
communication was immediately detected by our 24/7 intrusion 
detection system, and the department's computer incident 
response team was activated.
    The network operations staff was directed to block 
communications to suspect external I.P.s and the information 
system security officer at post was directed to move the 
infected devices from the network. Additionally, we dispatched 
an overseas cybersecurity engineer to the post, who then began 
a detailed on-site analysis of the infected computers.
    We also reported the malicious activity to the U.S. compute 
readiness team at the Department of Homeland Security. As we 
continued tracing the anomalous activity on our network, we 
identified additional intrusions and compromises, both in 
Washington and at other posts in the East Asia Pacific region. 
Our cyber analysts tested and evaluated captured malicious code 
and shared the results with trusted anti-virus vendors who 
quickly developed appropriate signatures for detecting and 
eradicating the malicious code.
    Further analysis by our cybersecurity engineer at site and 
our team in D.C. led to the discovery of a second unknown 
vulnerability, this time in the operating system, for which no 
security patch existed. Homeland Security played a critical 
coordinating role with Microsoft, urging them to develop and 
deploy a brand new patch as quickly as possible.
    At this stage, the CIO directed the establishment of a task 
force, a multi-bureau working group operating around the clock 
from within the secretary's operations center. The task force 
worked with staffs at post in their effort to mitigate the 
system compromises, rebuild servers, re-set passwords, and 
perform numerous other related tasks.
    It should be noted that while the intruder's activities 
greatly concerned us, they did not immediately attempt to steal 
data. Once the network monitoring staff saw limited data being 
exfiltrated, Internet connectivity throughout East Asia Pacific 
region was immediately severed.
    To develop an interim fix, we consulted with experts in 
industry and government, and created a temporary wrapper that 
would protect systems from being exploited further, but would 
not fix the vulnerability. The task force prescribed a 
remediation protocol restoring connectivity at the post that 
included completely sanitizing infected computers and servers, 
rebuilding them, changing all passwords, installing several 
critical patches along with the temporary wrapper, and updating 
anti-virus software.
    The mandatory corrective actions were then confirmed via 
remote scans from Washington and on-site verification by post. 
By early July 2006, all posts were operating normally and we 
have not experienced similar malicious activity in our 
unclassified network since.
    As I know you can appreciate, it is important to our 
overall success to handle these intrusions quietly and 
effectively, engaging a minimum number of players needed. We 
were successful here until a newspaper article telegraphed what 
we were dealing with. Still, we were able to fully inform the 
department's oversight, intelligence and appropriations 
committees of the significant details of the intrusion, while 
at the same time the Department of Homeland Security continued 
to engage Microsoft to deploy the needed patch.
    Mr. Chairman, I want to thank you and the subcommittee 
members for this opportunity, and I would be pleased to respond 
to your questions.
    [The statement of Mr. Reid follows:]

                  Prepared Statement of Donald R. Reid

    Good afternoon Chairman Langevin, Congressman McCaul, and 
distinguished Members of the Subcommittee:
    I am Donald R. Reid, the Senior Coordinator for Security 
Infrastructure, Bureau of Diplomatic Security at the Department of 
State. I am privileged to have this opportunity to testify before the 
Subcommittee about a cyber intrusion we experienced at the Department 
last spring. My statement will concentrate on events surrounding this 
targeted attack to the State Department's unclassified network in the 
May to July 2006 timeframe, how and when we detected the intrusion, who 
we notified and engaged to assist in defending our network, how we 
mitigated the damage and what improvements we have made at the 
Department to strengthen our cyber defenses.
    Before discussing this intrusion in detail, I would like to inform 
the Subcommittee generally how the State Department has structured its 
information technology assets to deal with cyber threats. To meet the 
Secretary's requirement for the confidentiality, integrity, and 
availability of IT systems and networks in the conduct of diplomacy, 
the Chief Information Officer employs a strategic, layered approach to 
comprehensive risk management of our information and information 
assets. This security strategy, which we call ``Defense in Depth,'' 
provides the Department multiple levels of defense and protection 
through a matrix of operational, technical, and managerial security 
controls. We focus on identifying and mitigating emerging threats 
because of our overseas exposure.
    At the direction of former Secretary of State Powell, and embraced 
by Secretary Rice, the Department embarked on an aggressive program to 
modernize its IT systems and networks ensuring that every employee had 
Internet access. While Internet access can and has greatly facilitated 
the conduct of diplomacy, it also brings inherent risks. Our 
architecture includes requisite perimeter security tools and devices, 
virus detection and response capability, an effective patch management 
program, network operations and traffic flow analysis, intrusion 
detection and response capability, security configuration controls and 
compliance verification to name a few. Over our unclassified network, 
we daily process about 750,000 e-mails and instant messages from our 
more than 40,000 employees and contractors at 100 domestic and 260 
overseas locations. Also, on a daily basis, we block 500,000 spam e-
mails, intercept 5,100 viruses and detect some 2,000,000 anomalous 
external probes to our network. At each of our domestic and overseas 
locations we employ U.S citizen Information System Security Officers. 
At 10 overseas locations, we also have highly-trained, cyber security 
engineers.
    It is worth noting that the cyber security team at State won the 
National Security Agency's prestigious Frank B. Rowlett Award for its 
organizational excellence in information assurance in 2005--a first for 
the State Department. Additionally, a number of individual members have 
won IT community-wide recognition for their contributions and 
leadership. Now, let me provide you some details about our cyber 
intrusion last year. In this open session, I will describe how the 
Department responded as a team with our community of partners to a 
sophisticated attack, while taking care to avoid those specifics that 
would make it easier to harm government systems in the future.
    In late May 2006, a socially-engineered e-mail was sent to an 
employee in the East Asia Pacific region. The e-mail appeared to be 
legitimate and was sent to an actual Department e-mail address. The e-
mail contained a Word document attachment of a Congressional speech on 
a topic germane to this region of the world. Later analysis confirmed 
the attachment contained exploit code hidden within a known Microsoft 
application that took advantage of a vulnerability for which there was 
no readily available patch. Once the recipient clicked on the 
attachment the embedded malicious code established backdoor 
communications outside of the Department's network via a Trojan Horse. 
This external communication was immediately detected by our 24/7 
intrusion detection system and the Department?s Computer Incident 
Response Team was activated.
    At this point, without full knowledge of how the exploit worked and 
not wanting to exacerbate the situation, network operations staff was 
directed to block communications to suspect external IPs and the 
information system security officer at post was directed to remove the 
infected devices from the network. In fact, we dispatched an overseas 
cyber security engineer to the post and began a detailed, on-site 
analysis of the infected computers. We also reported the malicious 
activity to US CERT at the Department of Homeland Security.
    As we continued tracing the anomalous activity on our network, we 
identified additional intrusions and compromises both in Washington and 
other posts in the East Asia Pacific region. Our mitigation activity 
was continued, and we maintained effective communication with US CERT. 
As the State Department's cyber analysts tested and evaluated captured 
malicious code, they shared their results with the greater Computer 
Network Defense community as well as trusted anti-virus vendors. This 
real-time information sharing practice resulted in the anti-virus 
vendors quickly developing appropriate signatures for detecting and 
eradicating the malicious code and they deployed their results 
worldwide through their daily virus definition updates.
    Meanwhile, critical analysis by our cyber security engineer at site 
and our team in D.C. led to the discovery of a previously unknown 
operating system vulnerability for which no security patch existed. The 
Department of Homeland Security played a critical coordinating role 
with Microsoft, urging them to develop and deploy a brand new patch as 
quickly as possible. State also reached out to the FBI for assistance, 
leveraging a well-established existing relationship.
    At this stage, the CIO directed the establishment of a Task Force; 
a multi-Bureau working group operating around the clock from within the 
Secretary?s operations center. The Task Force worked with staffs at 
post in their efforts to mitigate the system compromises, rebuild 
servers, reset passwords, and performed numerous other related tasks. 
It should be noted while the intruders' activities greatly concerned 
us, they did not immediately attempt to steal data. Therefore, Task 
Force members proposed a set of ``tripwires'' for disconnecting posts 
from the Internet if the activity got more daring, especially if data 
was being stolen. Once the network monitoring staff saw limited data 
being exfiltrated, Internet connectivity throughout the East Asia 
Pacific region was immediately severed.
    When it became apparent Microsoft was unable to further expedite 
testing and deployment of a new patch for the previously unknown 
vulnerability, the Department was left to develop its own interim fix. 
After consulting with experts in industry and government, the cyber 
team developed a temporary ``wrapper'' that would protect systems from 
being exploited further, but would not ``fix'' the vulnerability. The 
Task Force prescribed a remediation protocol for restoring connectivity 
for posts that included completely sanitizing infected computers and 
servers and rebuilding them, changing all passwords, installing several 
critical patches along with the temporary ``wrapper,'' and updating 
anti-virus software. These mandatory corrective actions were then 
confirmed via remote scans from Washington and on-site verification by 
posts. By early July 2006, all posts were operating normally and we 
have not experienced similar malicious activity in our unclassified 
network since. Microsoft did deploy its patch for this exploit in 
August 2006.
    As I know you can appreciate, it is important to our overall 
success to handle these intrusions quietly and effectively, engaging 
the minimum number of players needed. We were successful here until a 
newspaper article telegraphed what we were dealing with. Still, we were 
able to fully inform the Department's oversight, intelligence and 
appropriation committees of the significant details of this intrusion 
while, at the same time, the Department of Homeland Security continued 
to engage Microsoft to deploy the needed patch.
    Mr. Chairman, I want to thank you and the Subcommittee members for 
this opportunity. I would be pleased to respond to any of your 
questions.

    Mr. Langevin. You are welcome.
    Mr. Jarrell?

  STATEMENT OF DAVE JARRELL, MANAGER, CRITICAL INFRASTRUCTURE 
        PROTECTION PROGRAM, U.S. DEPARTMENT OF COMMERCE

    Mr. Jarrell. Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the subcommittee, I am David Jarrell 
and I represent the Department of Commerce.
    I will focus my statement on how the Department of Commerce 
works with our technology partners to ensure the security of 
our systems. I will also highlight Commerce interaction with 
the Department of Homeland Security US-CERT. And I will brief 
you on the cyber incident that was discovered July 13, 2006, 
affecting our Bureau of Industry and Security.
    Commerce security personnel work hard to protect our 
infrastructure and data. We exercise careful consideration in 
selecting and implementing technology that allows us to carry 
out our mission goals. With regard to protecting Commerce 
infrastructure, we rely on the security technology that is 
designed and tested by industry experts, and that adds value to 
the overall security posture of Commerce I.T. systems.
    Information technology and industry partners provide 
support in the form of program and system patches. These 
patches are critical when new or zero-day vulnerabilities are 
identified. We also rely on the support of organizations like 
US-CERT. Commerce, like other federal government agencies, is 
notified by DHS US-CERT, the GFIRST, when new vulnerabilities 
are identified and require our attention.
    Commerce manages seven computer incident response teams 
decentralized throughout the department, one of which supports 
BIS. These seven teams form the Commerce federation of computer 
incident response teams. To facilitate immediate notification, 
each team is required to report directly to US-CERT for FISMA 
and OMB guidance and the US-CERT concept of operations.
    In regards to the BIS incident, on July 13, 2006, the BIS 
deputy under secretary discovered that he was unable to log 
onto his computer upon arrival to his office. During their 
investigation, BIS staff found that one BIS-infected computer 
attempted to access the deputy under secretary's account to no 
avail. It was later found that the network account was in 
lockout status because of the multiple unsuccessful log-in 
attempts. This lockout status is an automated process 
configured to prevent unauthorized access to BIS accounts.
    Early during the investigation, Commerce notified US-CERT 
of the incident. BIS staff worked with the Commerce computer 
incident response team and our network operations staff and 
discovered that several other computers were involved in the 
incident. After being briefed on this new information, the 
Commerce incident response team escalated the incident, 
contacted US-CERT and requested on-site technical support.
    As a result, two security engineers worked with Commerce to 
collect forensics evidence of computer drives. Commerce also 
provided virus-infected files to out anti-virus service 
provider, who in turn provided files to detect infections on 
BIS and other computers. Over the course of the investigation, 
BIS network staff continued to monitor the incident. In total, 
32 BIS and one non-BIS computer were found to be infected, all 
of which were removed from the network and quarantined.
    Throughout this process, a block list was imposed to filter 
and prevent access to Web sites associated with the BIS 
incident. These blocks and filters remain in place today. 
Associated website addresses and infected file names were also 
shared with US-CERT. BIS management took immediate action from 
the time this incident was discovered. The interactive process 
between BIS, our network operations staff, and our incident 
response team enabled us to isolate infected computers.
    We received timely and useful support from US-CERT, the 
GFIRST, and our antivirus providers. We have no evidence to 
believe that BIS data was taken as a result of this incident, 
and we believe that all appropriate actions were taken. 
Unfortunately, hackers and malicious code continually pose 
threats to our computers and networks. The results are 
sometimes unpredictable. That said, our I.T. security and 
operations staff are ready to face the challenge.
    Thank you for the opportunity to appear before the 
subcommittee today. I am happy to answer any questions.
    [The statement of Mr. Jarrell follows:]

                 Prepared Statement of David E. Jarrell

    Chairman Langevin, Ranking Member McCaul, Chairman Thompson, 
Ranking Member King, and distinguished members of the Subcommittee, I 
appreciate the opportunity to address you on the state of cyber 
security protecting the Department of Commerce (Commerce).
    The Commerce Information Technology (IT) security program ensures 
that adequate controls are in place to protect the confidentiality, 
integrity, and availability of non-national security and national 
security IT systems and the data they process, transmit, and store. To 
fulfill the Departments requirements under the Federal Information 
Security Management Act (FISMA) of 2002, the IT Security Program 
establishes a framework of policies and procedures consistent with 
government-wide laws and regulations, ensures systems are categorized 
and assessed for risk of harm, conducts periodic monitoring of control 
effectiveness, monitors tracking and completion of corrective actions, 
and trains personnel with IT security responsibilities.
    Commerce consists of 13 bureaus that support its mission goals and 
objectives. This written testimony and my oral testimony will focus on 
the cyber intrusion affecting the Department's Bureau of Industry and 
Security (BIS), Commerce coordination with the Department of Homeland 
Security (DHS), United States--Computer Emergency Readiness Team (US-
CERT), and the Department of State (State), and will offer a broad 
perspective of the Commerce IT security program.

PREVENTIVE MEASURES & SECURITY POSTURING
    Commerce and its bureaus work diligently to ensure a sound and 
comprehensive IT security program. To that end, Commerce IT personnel 
ensure compliance with Federal requirements such as the FISMA, Office 
of Management and Budget (OMB) Circular A-130, Appendix III, Security 
of Federal Automated Information Resources, Government Accountability 
Office (GAO) guidance, as well as guidance issued for use within 
Federal civilian government Departments and Agencies and throughout the 
IT system development life cycle. That guidance comes in the form of 
National Institute of Standards and Technology (NIST) Special 
Publications. Other guidance considered when designing and deploying 
operational IT systems is derived from industry services, capabilities, 
and best practices.
    IT systems designed to support the business needs of the Department 
are typically managed within the program for which they will be 
utilized. The systems are also reviewed by the Department's Chief 
Information Officer (CIO) Council and/or Commerce IT Review Board 
(CITRB) before funding and other resources are allocated to support the 
system's development and integration into the Commerce infrastructure. 
It is this scrutiny that senior IT staff use to determine if adequate 
security planning and controls are integrated into the system 
development life cycle (SDLC) and enterprise architecture. In addition, 
other security measures are integrated into the design, implementation, 
and operation of all IT systems within Commerce.
    Commerce's enterprise architecture and IT Security Program Policy 
and Minimum Implementation Standards require the integration of 
security infrastructure for in-depth control, both at the perimeter and 
within the program's infrastructure. Examples of the infrastructure 
include the use of robust router and firewall technology, vulnerability 
scans and penetration testing of IT systems, monitoring of firewall and 
Intrusion Detection and Prevention System logs, email filtering, spam 
filters, anti-virus software, and intrusion detection and prevention 
systems.
    A management control implemented throughout Commerce includes user 
awareness training programs, an important aspect of the Department's 
first line of defense. IT security awareness consists of reminders that 
focus the user's attention on the concept of IT security in the user's 
daily routine. Awareness provides a general cognizance or mindfulness 
of one's actions, and the consequences of those actions. Awareness 
activities provide the means to highlight when a significant change in 
the IT security program policy or procedures occurs, when an incident 
occurs, or when a weakness in a security control is found. IT security 
training develops skills and knowledge such that computer users can 
perform their jobs more securely, and develop relevant and necessary 
security skills and competencies in those who access or manage Commerce 
information and resources. Commerce system users are required to take 
computer security training on a annual basis, and all new employees/
contractors to Commerce are provided training during in-processing 
prior to being issued a user login. In addition, IT administrators are 
required to take additional training courses each year that directly 
apply to their work related activities. We are currently assessing the 
option of using an Information System Security Line of Business Shared 
Service Center as a general security awareness training provider. This 
initiative is an E-Government Line of Business, managed by the 
Department of Homeland Security, intending to make the Government-wide 
IT security processes more efficient.
    In addition to intra-departmental controls and counter measures, 
the Department ensures that key personnel remain fully aware of U.S. 
Government-wide initiatives and programs that affect the operation or 
security of its IT systems. Commerce supports U.S. Government security 
response and planning committees to include the National Cyber Response 
Coordination Group (NCRCG), the Critical Infrastructure Protection 
Policy Coordination Committee (CIP PCC), and the National 
Communications System (NCS) Committee of Principals and Representatives 
(COP/COR).

COMMERCE FEDERATION OF COMPUTER INCIDENT RESPONSE TEAM
    For each bureau operating within Commerce, there are established 
Computer Incident Response Teams (CIRTs) that provide incident response 
for their respective bureau. Of the 13 bureaus operating within 
Commerce, there are six bureaus that enable their own cyber incident 
response programs through the use of bureau resources, including 
technical staff and technology. The remaining Commerce bureaus receive 
cyber incident response support from the centrally managed Department 
of Commerce Computer Incident Response Team (DOC CIRT). The DOC CIRT 
continually strives to reduce incident response time and increase 
effectiveness.
    To support this decentralized computer incident response 
capability, Commerce also manages a Federation of Computer Incident 
Response Teams--where all CIRTs within the Department are represented. 
This intra-Departmental forum allows all Commerce CIRTs to share 
information on a particular incident, discuss technology and security 
countermeasures, and leverage Department-wide resources in the event of 
a large-scale attack.
    Incident reports are filed directly to the DHS US-CERT in all 
incidents involving Department IT resources, per FISMA, other OMB 
guidance, and DHS US-CERT Concept of Operations (CONOPS).
    On a more global level, the DHS coordinates and manages the 
Government Forum of Incident Response and Security Teams (GFIRST). 
GFIRST is a group of technical and tactical practitioners of security 
response teams responsible for securing government IT systems, of which 
the Commerce Federation of Computer Incident Response Teams maintain 
membership and active participation. GFIRST members work together to 
understand and handle computer security incidents and to encourage 
proactive and preventative security practices. Through participation in 
the GFIRST, Commerce IT security professionals receive technical 
information, tools, methods, assistance and guidance on cyber issues, 
share specific technical details regarding incidents within a trusted 
U.S. government environment on a peer-to-peer level, and improve 
incident response operations.

Initial BIS Incident Response and Reporting
    Following the Department's guidance on reporting cyber incidents, 
BIS worked with the Network Operations Center (NOC), and the DOC CIRT 
to investigate suspicious behavior on BIS logical segment of the 
Commerce network, and its workstations. After the BIS and Commerce NOC 
staff confirmed that three workstations exhibited suspicious behavior, 
and removed them from the network, and BIS formally reported to the DOC 
CIRT that a breach of security occurred. As a result of this 
notification, the DOC CIRT notified the Director, IT Security, 
Infrastructure and Technology, the CIO, and the Network Operations 
Center (NOC), which manages the infrastructure and ``back bone'' 
network on which BIS Internet traffic traverses. The DOC CIRT also 
notified the US-CERT and the Department's Office of the Inspector 
General (OIG).
    The BIS cyber incident was discovered when the BIS Deputy Under 
Secretary discovered that he was unable to log into his computer upon 
arrival to his office on July 13, 2006, at 8:23 a.m. He immediately 
notified his CIO and security team, which determined that his network 
account was in lock-out status because three unsuccessful attempts were 
made to log into his account. This event was initially handled 
internally within BIS until such time that system staff determined it 
to be more significant and a reportable incident. Once determined to be 
an incident, as defined by Commerce policy, it was reported to the DOC 
CIRT.

    A timeline of events was created in support of the BIS incident 
from a BIS, DOC CIRT, and NOC perspective:
        <bullet> July 13, 2006
                <bullet> The user arrived at work and attempted to log 
                into his computer, but discovered that the BIS system 
                ``auto-locked'' his account, because failed login 
                attempt thresholds of three attempts were reached. This 
                prevented the user's ability to login at 8:23 a.m.
                <bullet> The user prompted the BIS internal Help Desk 
                and computer security team to begin an investigation of 
                the event.
                <bullet> The BIS technical staff discovered that the 
                cause of the account lock-out was because a BIS 
                computer attempted to access another BIS computer 
                resource. The computer in question also attempted to 
                execute automated processes to access two IP addresses 
                after business hours when the authorized user of that 
                machine was not in the office.
                <bullet> Examination of the installed anti-virus client 
                logs revealed detected and deleted programs installed 
                on the workstation. These auto-delete actions initiated 
                by the anti-virus client occurred at approximately the 
                same time that the BIS user's account was locked-out.
                <bullet> The BIS technical team contacted the Commerce 
                NOC and requested analysis of firewall logs for the 
                previous night's IP traffic. During this stage of the 
                investigation, the NOC found two additional BIS 
                computers attempting to contact one of the questionable 
                IP addresses.
                <bullet> All three infected BIS computers were removed 
                from the network, powered down, and quarantined.
                <bullet> The BIS CIO contacted the Commerce CIO to 
                brief him of the situation and circumstances 
                surrounding the event, and to advise that a CIRT report 
                was being written based on the information gathered 
                during the day and evening, and would be filed 
                consistent with Department procedures.
        <bullet> July 14, 2006
                <bullet> BIS formally filed the incident report with 
                DOC CIRT that identified three of its machines 
                operating on the BIS local area network at 11:51 a.m.
                <bullet> The DOC CIRT captured forensic images of the 
                infected computers. The DOC CIRT determined the cause 
                of the user account lock-out was likely due to the use 
                of the ``net'' command, which is used in Windows 
                networked environments to connect to other network 
                resources.
                <bullet> The DOC CIRT reported the BIS incident to the 
                US-CERT at 11:55 a.m.
        <bullet> July 19, 2006
                <bullet> The Commerce OIG was notified of the BIS 
                incident at 3:15 p.m. by the Commerce Critical 
                Infrastructure Protection (CIP) Manager
        <bullet> July 20, 2006
                <bullet> The DOC CIRT requested assistance from McAfee, 
                the company that provides Commerce anti-virus software, 
                to analyze and provide support to identify suspicious 
                files and to create new definition files for detection.
        <bullet> July 21, 2006
                <bullet> The DOC CIRT submitted follow-up reports to 
                the US-CERT with investigation status updates, and 
                requested on-site technical assistance from the US-CERT 
                at 11:48 a.m.
                <bullet> The CIP Manager advised the Department's 
                Federation of Computer Incident Response Team of the 
                BIS incident, and provided the ``block list'' of IP 
                addresses identified as malicious or suspicious, as 
                well as a list of malicious file names to be monitored.
        <bullet> July 22, 2006
                <bullet> DOC CIRT received a definition file from 
                McAfee which included unique signatures to detect the 
                malicious files identified by the DOC CIRT on July 20, 
                2006
        <bullet> July 25, 2006
                <bullet> The US-CERT provided on-site support to the 
                DOC CIRT.
                <bullet> The US-CERT provided the DOC CIRT with updates 
                their initial findings based on forensic image 
                analysis.
                <bullet> The DOC CIRT requested additional assistance 
                from McAfee to analyze and provide support to identify 
                additional suspicious files and to create new 
                definition files for detection.
        <bullet> July 25, 2006
                <bullet> The Department of Commerce IT staff, including 
                the DOC CIRT, continued to monitor ``block list'' IP 
                addresses to ensure that unwanted and unauthorized 
                access did not occur.
        <bullet> July 26, 2006
                <bullet> DOC CIRT received definition file from McAfee 
                with unique signatures to detect the malicious files 
                identified by the DOC CIRT on July 25, 2006.
    Throughout the course of the BIS incident investigation, blocking 
policies of malicious and suspicious IP addresses were imposed by the 
DOC CIRT, BIS technical staff, and the NOC. In addition, DOC firewall 
administrators and BIS technical staff reviewed archive firewall logs 
in an attempt to identify any previous activity fitting the 
characteristics of the incident. All blocks remain in place today.
    In summary, Commerce and BIS became aware of the break-in to BIS 
computers on July 13, 2006, which was determined not to be the date of 
the initial infection. The firewall logs were restored from the date 
the incident was discovered and the preceding eight months. The DOC 
CIRT, BIS technical staff, and the NOC reviewed and attempted to 
identify the initial date of the computer system compromise, to no 
avail. While firewall logs were reviewed for the preceding eight months 
prior to detecting the BIS incident, Commerce cannot clearly define the 
amount of time the perpetrators were inside its BIS computers before 
their presence was discovered. BIS has no evidence to show that data 
was lost as a result of this incident.

TRACKING AND CONTAINING THE OUTBREAK
    An on-going challenge faced by the Department is the ability to 
differentiate between real and false-positive cyber security events, 
given the volume of system logs and information collected that must be 
reviewed to determine which activities are actionable.
    BIS management took immediate action from the time the cyber 
security ``event'' was identified. Upon the determination that it was 
an ``incident,'' BIS followed Commerce incident protocol and alerted 
the DOC CIRT, the NOC, and the Commerce CIP Manager. BIS management, 
along with others within the Department, quickly established that their 
initial discovery of one user account locked-out due to existing policy 
settings included three infected computers that attempted to establish 
connections with two suspicious IP addresses.
    As discussed in the Initial BIS Incident Response and Reproting 
section of this report, the incident was escalated when it was 
discovered that more than one computer was involved. By July 24, 2006, 
it was discovered that ten computers attempted to establish connections 
to six suspicious IP addresses. By August 18, 2006, through continued 
and aggressive monitoring by BIS, the Department's IT staff, and 
support from the DHS US-CERT, it was discovered that a total of 32 BIS 
computers and one non-BIS computer attempted access to eleven 
suspicious IP addresses, as detected by monitoring logs from the 
Department's firewalls. It was later found that all computers showed 
signs of infection.
    Several of these victim computers were detected by the custom 
Intrusion Detection Systems (IDS) signatures put into place as part of 
the Commerce initial response. Of these custom signatures, several 
indicators were supplied by the US-CERT to create custom IDS 
signatures. In one notable case, a victim computer triggered a custom 
signature, and was immediately isolated according to the improved 
incident response procedures. Upon further examination, it appeared 
that the victim was in the process of preparing files for exfiltration, 
but stopped as a result of controls put in place to isolate the 
incident. Hence the initial actions taken by Commerce, BIS, DHS, and 
the US-CERT were demonstrably effective in containing the damage from 
the incident. Of the 330 Commerce systems that require certification 
and accreditation in accordance with FISMA, only two systems were 
affected by this incident.
    FISMA and certification and accreditation (C&A) compliance offer IT 
management useful tools to ensure that adequate controls are 
considered, implemented, and tested throughout the system's life cycle. 
BIS did have a FISMA C&A package for its system which was reviewed by 
the Commerce CIO's office at the time of the incident--the security 
incident could have occurred regardless of FISMA and C&A status because 
the incident method of attack uses Internet access to exploit un-
patched zero-day-attack vulnerabilities, irrespective of the commercial 
computer security and network monitoring tools and standard prescribed 
Security Test & Evaluation (ST&E) penetration testing. This is a key 
point related to the BIS response, specifically the decision to 
segregate Internet access. It is also important to note that BIS has no 
evidence to indicate that BIS data has been exfiltrated or compromised.

EFFECTING CHANGE ON COMMERCE AND BIS SYSTEMS
    BIS implemented host-based measures that revealed other victim 
computers. Additional victim computers were discovered using host-based 
measures identifying Trojans found dormant on the BIS logical segment 
of the Commerce network before they became active. Processes developed 
by BIS to discover and stop unauthorized activity on their network 
proved extremely successful.
    BIS established controls to detect and flag any computer infected 
with variants of those files causing compromise to the BIS logical 
segment of the Commerce network. As a result, the DOC CIRT and the NOC 
were able to identify those computers infected by the same outbreak 
traits, which included 33 computers. The Department was able to 
identify and quarantine the infected 33 computers through effective 
collaboration between Commerce and BIS IT staff involved in the 
incident, the ``block list'' of prohibited IP addresses and sites, and 
other controls to stop unwanted system activity (e.g., systems 
downloading malicious files, systems access to malicious/suspicious 
sites outside the control of Commerce and BIS). Only one of the 33 
infected computers was outside the control of BIS.
    To ensure that the infection did not spread to other Commerce 
bureau computer systems, file names of the infected files and 
associated suspicious IP addresses were shared among the Department's 
Federation of Computer Incident Response Teams. After review and 
analysis of all system logs, no other infections or infestations were 
evident. In addition, all infected computer drives were quarantined 
from use. After sample forensic images were captured for investigative 
purposes, all drives were boxed and have been removed, and secured 
under lock and key. No data was restored from backup tape as a result 
of the BIS incident.
    As a precautionary measure, BIS executive management required the 
implementation of emergency change provisions to the change management 
process. The change involved adding supplemental rules that created 
additional Virtual Local Area Networks (VLANs) assigned to BIS to 
segregate Internet, office automation, and export control system 
access, and to deny all other access for BIS VLANs. When the incident 
occurred, a policy was invoked to impose more stringent limits on all 
access to or from BIS systems, (e.g., other BIS remote sites, patch 
management, virus definition updates).
    Custom IDS signatures capable of detecting infected files causing 
impact on BIS computers have remained active since the discovery of the 
first infected computer. These IDS safeguards, coupled with 
augmentation of a newly implemented Intrusion Prevention System (IPS) 
that monitors data streams to block and/or drop traffic based on 
behavior for egress and ingress to the network were instrumental in 
containing the damage. There is a high probability that existing 
backdoors, if any, to the network will be detected. In addition to 
safeguards put in place, BIS has added supplemental assurance by 
segmenting use of their logical network to ensure that computers which 
were connected to the BIS logical segment of the Commerce network 
during the attack no longer have access to the Internet--effectively 
segmenting computers used for BIS business processes from any Internet 
access. Other BIS implemented other high assurance safeguards been put 
in place to sustain continued and reliable operation. It is impossible 
to say with certainty that 100% of the infestation is eradicated from 
the network, but with active monitoring tools in place and an attentive 
IT team, there is a high probability of detection.
    The DOC CIRT conducts quarterly vulnerability assessments on all 
devices residing on the Herbert C. Hoover Building Network (HCHBNet), 
which includes the BIS logical segment of the DOC network. These scans 
involve all devices where an IP address is assigned (e.g., server class 
machines, desktop computers, appliances, printers, voice phones). 
Internet facing systems staged on the HCHBNet Demilitarized Zone (DMZ) 
are also part of the quarterly vulnerability assessments. In addition 
to quarterly vulnerability assessments, the DOC CIRT conducts 
vulnerability assessments for bureaus as requested to support 
certification and accreditation enhancements when newly approved 
systems and/or network devices are ready for network integration. On 
average, there are approximately 14,000 checks for potential 
vulnerabilities factored into each assessment. Results of each 
assessment are shared with the bureau CIO and IT Security Officer for 
action. The last two quarterly scans were conducted on December 18, 
2006, and again on April 13, 2007.
    In supporting FISMA-required certification and accreditations, the 
Department spends on average between $20K and $250K for Commerce IT 
systems depending on the size, complexity and significance. There are a 
total of 330 IT systems in the Department's IT inventory. 
Approximations are provided since legacy systems are sometimes retired 
from production while new systems are introduced. Results of each 
system certification and accreditation security testing exercise yields 
extremely valuable information to the authorizing official who is 
ultimately responsible for the security of their system(s). Used as an 
education and program enhancement tool, yield valuable information 
pertaining to the system's overall security posture. An itemized 
inventory of vulnerabilities is generated during security testing that 
allows the system owner to methodically address as either ``quick fix'' 
items that can be readily resolved, or as mid- to long range items 
requiring supplemental resources. Long-term action items are 
inventoried in the system's Plan of Action and Milestones (POA&M).
    Security testing is applied to each system as part of the System 
Development Life Cycle, which ensures that adequate security controls, 
monitoring, and logging capabilities exist, and that the overall 
implementation of new technology does not weaken existing security. In 
addition, introduction of any change is tested in a lab setting prior 
to being brought before the Change Control Board (CCB) for 
consideration, and before final integration into the production 
environment is allowed.

Situational Awareness Briefings
    Situational awareness briefings are a tool used by the Commerce 
(CIO) to allow staff to receive status updates on various issues 
pertaining to cyber security and incident response situations occurring 
within Commerce. Such situational cyber security awareness briefings 
come in two forms: proactive and incident response briefings.
    Proactive situational awareness briefings are typically scheduled 
for senior and technical IT professionals on a recurring basis so that 
they can remain apprised of cyber threats and alerts, industry 
recommendations, product and vendor services and capabilities, and 
other variables. In the realm of cyber threats and alerts, Commerce 
managers are informed of newly released notifications published by the 
DHS/US-CERT and other ``watch dog'' organizations that monitor and 
provide status on cyber-related threats and trends. As a form of 
proactive briefings, the CIO coordinated briefings from the DHS/US-
CERT, and the Department of Defense (DoD) Joint Task Force-Global 
Network Operations (JTF-GNO). These briefings allowed Commerce managers 
to better understand the range and magnitude of cyber-related events on 
a global scale and the specific impacts against U.S. government managed 
IT systems. In all cases, Commerce IT managers have found value in the 
information provided by DHS/US-CERT, and DoD JTF-GNO.
    Incident Response briefings are designed to inform those charged 
with the management and control of IT systems and resources of a 
particular incident and its operational impact on an affected system, 
its data, and the security of the system. After the BIS incident was 
discovered and initial response and reporting requirements were 
satisfied, several meetings were scheduled for the Department's senior 
management so that they might better understand the cyber threats faced 
today. To support this initiative, several briefings were scheduled 
that brought together Commerce senior management, the Commerce IT 
Security Director, the Department of Homeland Security, US-CERT 
management, and DoD JTF-GNO. As a supplemental effort to learn more 
about incidents involving U.S. Government systems, a briefing was 
scheduled between Commerce and BIS IT managers, and those charged with 
securing the State IT systems, where a ``lessons learned'' discussion 
engaged all parties.

Information Technology Security Enahncements
    Monitoring and improving the state of IT security infrastructure 
capabilities remains a priority for the Commerce CIO. Improvements come 
in the form of newly released technology and upgrades to the 
Department's existing infrastructure. Patch management for system and 
appliances are updated routinely and coordinated through a formalized 
CCB. These changes are introduced into a test lab environment where 
changes and new technology can be evaluated before they are placed in a 
``production'' environment.
    To supplement the existing IPS running in IDS mode, the Department 
has integrated a full scale IPS to achieve active protection at the 
firewall. This newer technology allows the capture and analysis of both 
ingress and egress traffic across the network in the event of a cyber 
security incident. A second, more powerful log server for faster 
analysis and redundant storage was procured with log analysis software 
to speed and refine the analysis of firewall and other system logs. In 
addition, firewall upgrades were enabled to allow deep application 
inspection of traffic, and firewall log storage was increased to allow 
more data storage captured from the device(s).
    Minimizing cyber security incident response time is a goal that the 
entire Federation of Computer Incident Response Team strives to 
improve. Changes were recently made that enable the DOC CIRT to gain 
direct read access to firewall logs, without intervention by the 
firewall administrators or other third parties, thus improving incident 
response time.
    Commerce will play an active role in the Cyber Storm 2007. Cyber 
Storm is the U.S. DHS National Cyber Security Division (NCSD) national 
cyber exercise. The exercise is a unique government-led, full-scale, 
cyber security exercise supporting Homeland Security Presidential 
Directive 7. Commerce also participated in the first Cyber Storm 2006 
exercise coordinated by DHS/NCSD.
    Commerce is also working with DHS program managers to explore the 
integration of Project Einstein into Commerce managed systems. The US-
CERT Einstein Program is an initiative that builds cyber-related 
situational awareness across the Federal government. The program 
monitors government agencies' networks to facilitate the identification 
and response to cyber threats and attacks, improves network security, 
and increases the resiliency of critical electronically delivered 
government services. Einstein leverages IT so that the US-CERT can 
automate the sharing of critical information across the entire Federal 
government. Enhanced data sharing between Federal government agencies 
and the US-CERT provides an advanced cyber view and analysis of the 
Federal government's critical cyber networks.
    In 2008 the Department has budgeted $120 million for IT security. 
This funding is estimated by the 13 bureaus operating with Commerce for 
a variety of IT security related tasks, including security awareness 
and training, system certification and accreditation, IT security 
operations improvements, existing security program maintenance, 
contingency of operations and disaster recovery planning, and other IT 
security related initiatives.
    Thank you for the opportunity to appear before this Subcommittee 
today, and I would be happy to answer any questions you may have at 
this time.

    Mr. Langevin. Mr. Dixon?

  STATEMENT OF JERRY DIXON, DIRECTOR, NATIONAL CYBER SECURITY 
         DIVISION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Dixon. Chairman Langevin, Ranking Member McCaul and 
members of the subcommittee, I appreciate the opportunity to 
address you on the National Cyber Security Division's role in 
detection of and response to cyber intrusions of federal 
computer networks. The NCSD is a component of the Office of 
Cybersecurity and Communications within the recently 
established National Protection of Programs Directorate of the 
Department of Homeland Security.
    The very topic of this hearing on the need to coordinate 
and respond to cybersecurity incidents across the federal 
government is among Secretary Chertoff's highest priorities. 
The National Cyber Security Division's mandate includes 
analysis, watch and warning, information sharing, vulnerability 
reduction, aiding national recovery efforts, including working 
collaboratively with the public and private sectors to enhance 
the security of America's cyber networks and information 
systems.
    DHS works across its component entities to address 
cybersecurity in a cohesive manner, as well as with our federal 
partners across the departments and agencies. DHS and NCSD 
serves as the focal point for helping government, industry and 
the public work together to achieve the appropriate responses 
to cyber threats and vulnerabilities.
    The NCSD's operational arm for cybersecurity is the United 
States Computer Emergency Readiness Team. This team provides 
around-the-clock monitoring of cyber infrastructure and 
coordinates the dissemination of information to key 
constituencies, including all levels of government and industry 
through its national cyber alert system.
    Furthermore, FISMA and OMB policy requires all federal 
agencies to notify US-CERT of any data breaches, unauthorized 
access, or suspicious activity, including the loss of 
personally identifiable information. The US-CERT played a 
pivotal role in response efforts to the recent incidents at the 
Department of Commerce and the Department of State. Both 
incidents highlight that the threat to government systems has 
shifted from opportunistic hacking to targeted cyber attacks.
    These cyber attacks are sophisticated and have often led to 
the discovery of new vulnerabilities and applications in 
operating systems. As a result of these vulnerabilities, U.S-
CERT works closely with those vendors whose products are 
affected to collaborate on fixes and mitigation strategies, 
which are communicated to our partners within government and 
industry via the national cyber alert system.
    To accomplish our operational mission, US-CERT focuses on 
enhancing situational awareness, increasing collaboration 
across operational security teams, assisting with prevention or 
rapid containment of malicious cyber attacks, and providing for 
interagency coordination during a cyber event. To further 
enhance our incident response activities, we have members from 
the FBI, the United States Secret Service, and other agency 
liaisons that help facilitate rapid response and increase our 
situational awareness.
    Now, to focus on the recent incidents that affected the 
Departments of State and Commerce. Both departments notified 
the US-CERT in compliance with OMB guidance, FISMA, and the US-
CERT concept of operations within the required timeframes. In 
the Department of State incident, which involved a newly 
identified Microsoft zero-day vulnerability, the US-CERT 
immediately engaged to assist with the response efforts as soon 
as the report was received. In collaboration with the 
Department of State, US-CERT coordinated with federal agencies 
throughout the incidence response and recovery phase.
    At the same time, US-CERT coordinated daily with the 
Microsoft security response center for vulnerability 
management, patch remediation, and public disclosure 
coordination. Additional technical analysis revealed this 
vulnerability to be more dangerous and pervasive across all 
Microsoft operating system platforms.
    Just prior to the public release of the Microsoft security 
bulletin, the US-CERT and Microsoft conducted a series of 
briefings with federal, state and local operational security 
teams, chief information officers, chief information security 
officers, and critical infrastructure sectors. Following these 
briefings, the US-CERT and Microsoft jointly released public 
notification related to the vulnerability and the availability 
of a security patch.
    In the incident involving the Department of Commerce, the 
US-CERT was notified by the Department of Commerce's 
operational security team. During this response effort, the US-
CERT provided on-site assistance to the Department of Commerce 
CIRT. This enabled on-site collaboration and a rapid analysis 
of the event so it could be quickly contained and remediated.
    The NCSD continues to conduct outreach to federal agencies 
to raise cybersecurity awareness with operational security 
teams and senior officials through its government forum of 
incident response teams known as GFIRST. Moreover, the NCSD 
continues to work with our federal and private-sector 
stakeholders to identify vulnerabilities and quickly identify 
suspicious activity by enhancing bi-directional information 
sharing.
    The NCSD also continues to provide cybersecurity training 
to further increase the number of cyber incident responders to 
enable agencies to quickly identify and contain emerging cyber 
attacks. While significant progress has been made to enhance 
the network security of federal departments and agencies, more 
can and will be done.
    Thank you for the opportunity to appear before this 
subcommittee today. I would be happy to answer any questions 
you may have at this time.
    [The statement of Mr. Dixon follows:]

                   Prepared Statement of Jerry Dixon

    Chairman Langevin, Ranking Member McCaul and Members of the 
Subcommittee, I appreciate the opportunity to address you on the 
National Cyber Security Division's (NCSD) role in detection of and 
response to intrusions of Federal computer networks. The NCSD is a 
component of the Office of Cyber Security and Communications (CS&C) 
within the recently established National Protection and Programs 
Directorate (NPPD) of the Department of Homeland Security. Assistant 
Secretary for Cyber Security and Communications Gregory Garcia is 
responsible for the overarching mission of CS&C to prepare for and 
respond to incidents that could degrade or overwhelm the operation of 
our Nation's IT and communications infrastructure. This mission is part 
of a larger strategy to ensure the security, integrity, reliability, 
and availability of our information and communications networks. 
Indeed, the very topic of this hearing &ndash; that is, the need to 
coordinate better cyber security practices across the Federal 
government &ndash; is among Secretary Chertoff's highest priorities.
    The NCSD was created in June 2003 to serve as a national focal 
point for cyber security and to coordinate implementation of the 
National Strategy to Secure Cyberspace (``the Strategy'') issued by 
President Bush in February 2003. The Strategy outlines a national 
framework of priorities, which are reflected in NCSD programs, to 
promote cyber security and public-private partnerships. The NCSD's 
mandate includes analysis, watch and warning, information sharing, 
vulnerability reduction, aiding national recovery efforts for critical 
infrastructure information systems, and working collaboratively with 
the public and private sectors to secure America's cyber networks, 
systems, and assets. DHS works across its component entities to address 
cyber security in a cohesive manner, as well as with our Federal 
partners across the departments and agencies.
    The NCSD's watch and warning mechanism for cyber infrastructure is 
the United States-Computer Emergency Readiness Team (US-CERT). This 
team provides around-the-clock monitoring of cyber infrastructure and 
coordinates the dissemination of information to key constituencies 
including all levels of government and industry. DHS and NCSD/US-CERT 
serve as the focal point for helping government, industry, and the 
public work together to achieve the appropriate responses to cyber 
threats and vulnerabilities
    A key area of focus for NCSD/US-CERT is our work with the Federal 
departments and agencies.

Programs and Initiatives
    The NCSD/US-CERT has a number of programs and initiatives to 
accomplish our operational mission of coordinating improvements in the 
security and management of the Federal Government's information systems 
and networks. These programs focus on enhancing situational awareness, 
increasing collaboration across Federal operational security teams, 
preventing or quickly containing cyber incidents, and providing for 
inter-agency coordination during a cyber event.
    The NCSD manages the Einstein program, which supports Federal 
agencies' efforts to protect their computer networks. Einstein provides 
the first situational awareness picture of the Federal Government's 
Internet facing networks. It enables the rapid detection of cyber 
attacks affecting agencies and provides Federal agencies with early 
incident detection. Einstein is currently deployed at ten Federal 
agencies with a goal to deploy it to all Cabinet level and critical 
independent Federal agencies.
    Einstein has greatly reduced the time for the Federal Government to 
gather and share critical data on computer security risks from days to 
hours.
    Another major program is the Information Systems Security Line of 
Business (ISS LOB). The NCSD was designated by OMB as the managing 
agency for the ISS LOB, which is part of the President's Management 
Agenda. The ISS LOB allows all Federal departments and agencies to 
benefit from improved levels of cyber security, reduced costs, 
elimination of duplicative efforts, and improved quality of service and 
expertise. The program addresses four information security areas that 
are common across the Federal Government: Security Training, Federal 
Information Security Management Act (FISMA) Reporting, Emerging 
Security Solutions for the Lifecycle, and Situational Awareness and 
Incident Response.
    Additionally, CS&C's mission is enhanced through the continued 
development of the National Response Plan (NRP). The NRP provides the 
structure and mechanisms for Federal support to State, local, and 
tribal incident managers. In coordination with other Federal agencies, 
CS&C has been working to provide mechanisms for improving national-
level response to Information Technology and Communications incidents. 
The Cyber Incident Annex to the NRP provides a framework for addressing 
a cyber event which requires a federally coordinated response, and it 
formalizes the National Cyber Response Coordination Group (NCRCG) as 
the principal Federal interagency mechanism to coordinate preparation 
for and response to a national-level cyber incident. The NCRCG, co-
chaired by DHS, Department of Defense, and Department of Justice, 
coordinates recommendations and facilitates direct actions to obtain 
the necessary interagency support to respond to major cyber incidents.
    Through the NCSD exercise program, we regularly test our plans and 
procedures. In February 2006 we held the first national cyber exercise, 
``Cyber Storm,'' to examine various aspects of our operational mission. 
This included the activation of the NCRCG and working with other 
Federal agencies on cyber security response to address the exercise 
scenarios. Lessons learned and after action items from that effort 
continue to be addressed by NCSD and other participants. Progress made 
to improve response processes and procedures since Cyber Storm, as well 
as other regional exercises that we sponsor, will be measured in Cyber 
Storm II, which is scheduled for March 2008.
    We also worked collaboratively with the Air Force, the National 
Institute of Standards and Technology (NIST), the Defense Information 
Systems Agency, the National Security Agency, and Microsoft to 
establish common security configurations for Windows XP and VISTA. 
Common security configurations provide a baseline level of security, 
reduce risk from security threats and vulnerabilities, and save time 
and resources. This allows agencies to improve system performance, 
decrease operating costs, and ensure public confidence in the 
confidentiality, integrity, and availability of government information. 
The configurations can be found on our website and we are working with 
NIST to help agencies adopt them.
    Finally, the US-CERT Operations Incident Handling Center provides a 
24 hour a day, seven day a week watch center that conducts daily 
analysis and situational monitoring. The Center identifies trends and 
provides information on incidents and other events, as they are 
detected and unfold, to increase situational awareness and 
understanding of the current operating environment. FISMA policy 
requires all Federal agencies to notify US-CERT of any data breaches, 
unauthorized access, or suspicious activity, including the loss of 
personally identifiable information (PII).

Recent Response Efforts
    The NCSD/US-CERT played a pivotal role in response efforts to the 
recent incidents at the Department of Commerce (DOC) and the Department 
of State (DOS). Both incidents highlight that the threat to government 
systems has shifted from opportunistic hacking to targeted cyber 
attacks. These cyber attacks are sophisticated and have often led to 
the discovery of new vulnerabilities in applications or operating 
systems. As a result of these vulnerabilities, NCSD/US-CERT works 
closely with those vendors whose products are affected to collaborate 
on fixes and mitigation strategies, which are communicated to our 
partners within government and industry via the National Cyber Alert 
System. These incidents highlight the need for enhanced rapid 
situational awareness across the Federal Government. In addition, the 
Einstein early watch and warning system has been implemented at the DOS 
and groundwork is being laid to implement Einstein at the DOC in the 
near future.
    In both incidents, the affected Departments notified the US-CERT in 
compliance with OMB guidance, FISMA, and the US-CERT Concept of 
Operations (CONOPS) within the required timeframes. While the details 
of these incidents should be provided by DOS and DOC, I will discuss 
the effective coordination processes that were utilized to respond to 
these incidents. We would be happy to provide the Committee with a more 
detailed briefing in the appropriate setting at a later date.
    In the DOS incident, which involved a newly identified Microsoft 
``zero-day'' vulnerability, the US-CERT immediately engaged to assist 
with response efforts as soon as the report was received. In 
collaboration, the DOS and US-CERT coordinated with the National 
Operations Center (NOC), and other Federal agencies throughout the 
incident response and recovery phase. At the same time, US-CERT 
coordinated daily with the Microsoft Security Response Center for 
vulnerability management, patch remediation and public disclosure 
coordination.
    Additional technical analysis revealed this vulnerability to be 
more dangerous and pervasive across all Microsoft operating system 
platforms. Just prior to the public release of the Microsoft Security 
Bulletin (MS06-040), the US-CERT and Microsoft conducted a series of 
briefings with Federal and State operational Incident Response and 
Security Teams, Chief Information Officers, Chief Information Security 
Officers, and critical infrastructure sectors via the Sector 
Coordinating Committees (SCC) and designated Information Sharing and 
Analysis Centers (ISAC).
    Following these briefings, the US-CERT and Microsoft jointly 
released public notifications related to the new vulnerability and the 
availability of a security patch. The US-CERT released a public 
Technical Cyber Security Alert via the National Cyber Alert System. 
Additionally, we disseminated a Federal Information Notice to the 
Federal community, and a Critical Infrastructure Information Notice to 
the critical infrastructure SCCs and ISACs.
    Because of the significant risk posed by this vulnerability, DHS 
released its first ever press release focused on cyber security 
recommending that all users of the Microsoft Windows Operating Systems 
apply the security patch as quickly as possible. This public press 
release, along with the significant volume of media coverage and 
attention it garnered, led to a highly successful rollout of a security 
patch. Also the US-CERT continued to monitor the Federal Government's 
patch status and reported those results on a weekly basis until all 
agencies reported they had completed their patch deployments.
    In the incident involving the DOC, the US-CERT was notified by the 
DOC's Office of the Chief Information Officer and Cyber Incident 
Response Team (CIRT) in accordance with OMB guidance, FISMA, and the 
US-CERT CONOPS. During this response effort, the US-CERT provided on-
site assistance at the request of DOC CIRT. This enabled on-site 
collaboration and rapid analysis of the event so it could be quickly 
contained and remediated. In addition, they coordinated their 
activities with the NOC and other Federal agencies throughout the 
incident response and recovery phase. As a result of this incident the 
DOC has expanded their response capability to an around-the-clock 
operation which should greatly aid in their future incident detection 
and response efforts.
    The NCSD continues to conduct outreach to Federal agencies to raise 
cyber security awareness with operational security teams and senior 
officials through its Government Forum of Incident Response and 
Security Teams (GFIRST). Moreover, the NCSD continues to work with our 
Federal and private sector stakeholders to identify vulnerabilities and 
quickly identify suspicious activity by enhancing bi-directional 
information sharing. The NCSD also continues to provide cyber security 
training to further increase the number of cyber incident responders to 
enable agencies to quickly identify and contain emerging cyber attacks.
    While significant progress has been made to enhance the network 
security of Federal departments and agencies, more can and will be 
done. Based on our ongoing programs and initiatives, the NCSD and its 
US-CERT are poised to continue to work towards achieving greater 
overall cyber security with our Federal, State, local, tribal, 
international, and private sector partners. It is clear from our work 
to date and the continuing evolution of information technology in our 
society that additional advancements will be required to mitigate the 
growing cyber security risks. Accordingly, we expect continuing 
dialogue with this Committee as we further understand the evolving 
nature of the cyber security issues.
    Thank you for the opportunity to appear before this Subcommittee 
today and I would be happy to answer any questions you may have at this 
time.

    Mr. Langevin. Thank you.
    Before I go to questions, two things first of all, 
procedurally.
    The committee rules state that witness testimony needs to 
be in 48 hours in advance. All the panel members got theirs in 
advance, with the exception of the Department of Homeland 
Security. I would ask that in the future that that testimony is 
in 48 hours, according to committee rules. I understand that 
these things have to be cleared to the White House, so it is 
not entirely an individual's fault. But timely submission of 
testimony is important because we can't do business this way 
without having the testimony ahead of time. Okay?
    The other question I have, Assistant Secretary for Cyber 
Security Garcia is not in attendance today. Is there a reason 
that he is not joining us?
    Mr. Dixon. Chairman Langevin, since my direct involvement, 
at the time I was the deputy director for US-CERT, and since 
this evolves around two specific intrusions, it was thought 
that it would be best since I was pretty much heavily involved 
with both of these situations, to be present.
    Mr. Langevin. Thank you. We look forward to having the 
assistant secretary before us in the very near future.
    I thank all the witnesses for their testimony.
    I remind each member that he or she will have 5 minutes to 
question the panel.
    I would now recognize myself for 5 minutes.
    I would like to begin, if I could, with Mr. Reid on the 
question, and I just want to a little further explore the issue 
of the hacker penetrations that we discussed in my opening 
testimony, and that you addressed in your statement.
    I talked about the fact that most targeted attacks involve 
these rootkits, which can't be detected by temporary wrappers. 
You describe the use of temporary wrappers initially, and then 
you described another process, but it wasn't clear that you 
took everything offline for a long period of time and did a 
full kernel inspection.
    I would like you to address more on that, as to how you 
handled the penetration once you became aware of it.
    Mr. Reid. Sir, I would just like to reinforce in my written 
testimony there was a little bit more detail than the oral 
statement. What we were dealing with here was two zero-day 
exponents, for want of a better term. So we were in unknown 
territory and we are trying to learn as we are going along.
    Mr. Dixon can probably talk to this better than I can, but 
my understanding is that typically it takes Microsoft a minimum 
of 2 months or longer to issue a security patch. So we knew it 
was going to take quite a long time before we were going to be 
able to fix this particular vulnerability, and we needed 
something before then. So as I indicated in my testimony, we 
sought the best minds out there in the private sector and in 
government to try and come up with a solution.
    The security wrapper was what was recommended, and we came 
up with a protocol for deploying that. We did take the entire 
system down in East Asia Pacific for about a 3-week period.
    Mr. Langevin. Did you do a full system wash, and then re-
build?
    Mr. Reid. Yes, sir. We rebuilt everything, and we are 
scanning continuously as we are checking these things are. And 
then we also have available to us what we call a forensic-like 
tool that we developed about 3 years ago. It helps us evaluate 
the network even closer in a very discrete manner, so that we 
can tell whether there is any lingering signatures.
    So we felt pretty confident that we had a new process in 
place. We went through it very thoroughly. Before we bring a 
post back up on line, as I said we did remote scans from 
Washington to confirm what they were telling us at post. We 
found a lot of inconsistencies that they hadn't done the things 
they said they had. We wouldn't reconnect them.
    There is a business case here in terms of taking an entire 
system off-line. It does have to be weighed and it is an 
incredibly tough decision to make, but the business of the 
State Department in part is issuing passports, issuing visas. 
At all our overseas posts, you have consular officers. You have 
visa lines out there with people waiting to apply for visas and 
stuff. If you take the system off-line, all of that comes to a 
screeching halt, with tremendous expense and disruption of 
normal day-to-day business.
    We felt that the risks were worth it, that we had a 
solution that was going to work. As I indicated, since July, we 
haven't had any more attacks. The Microsoft patch, by the way, 
did not come out until August.
    Mr. Langevin. Do you balance the business versus security 
information?
    Mr. Reid. It is a tough decision. I am not saying that we 
did this. This is a decision we take to the CIO in terms of 
weighing that. When do you disconnect a region from the 
Internet? That is an incredibly disruptive thing to do, 
obviously, for day-to-day business. The State Department kind 
of got into the connectivity to the Internet late in the game. 
This really occurred under Secretary Powell's watch and was 
endorsed by Secretary Rice. So we have been modernizing our 
I.T. systems, but the connection to the Internet brings with it 
inherent risks. There is no doubt about it.
    Mr. Langevin. I am not satisfied that we haven't erred more 
on the side of protecting national security. I know the conduct 
of business is obviously important, but I am concerned that 
there hasn't been a proper balance of weight given to 
protecting national security.
    Mr. Reid. Sir, could I offer to follow up with a written 
explanation of what that wrapper was, what it entailed and what 
protections we believe were in place?
    Mr. Langevin. Yes, I think that would be helpful.
    Mr. Reid. All right, sir.
    Mr. Langevin. My next question is for Mr. Dixon. FISMA 
requires each agency to notify US-CERT about incidents 
affecting the information systems. How many incidents have you 
been notified about in 2006 and 2007?
    Mr. Dixon. Yes, sir. For fiscal year 2006, we had over 
23,978 incidents, I believe, somewhere in that ballpark. And 
then just for fiscal year 2007 to date, we are already up to 
20,000-plus incidents being reported to us.
    Mr. Langevin. Mr. Reid, and I will ask GAO to follow up on 
this as well, I mentioned in my opening statement the issue of 
classified versus unclassified networks. Your inspector general 
reported that your agency only 50 percent of your system is 
inventoried. This means that your network topology is 
incomplete as well.
    Given this unknown, how can you be certain that your 
classified networks aren't touching your unclassified networks? 
Can you really know that hackers have only access to 
unclassified networks? Do you have an idea of how much 
information was compromised?
    Mr. Reid. On the issue of unclassified and classified 
networks, they are separate networks. So we are very confident 
that there is no bleed-over, that the hackers don't have a 
route into the classified network by compromising the 
unclassified system.
    We do our scanning on both systems. We do our scanning on 
our unclassified systems and classified systems. We have seen 
no activity on our classified systems, nor has the national 
security community as a whole.
    Mr. Langevin. How is that possible if you haven't completed 
the topology?
    Mr. Reid. I don't know that we necessarily agree with the 
I.G. My understanding of the I.G. was that they found one 
system that was not reported, and that they concluded from that 
that they couldn't trust the rest of our inventory. We feel we 
have a very complete inventory, certainly far more than 50 
percent of the topology.
    Again, it is our scanning that does that. Our scanning goes 
out and touches 57,000 devices that are out there on our 
unclassified network. We know where they are. We know that 
there is more work to be done on our inventory.
    Mr. Langevin. Mr. Wilshusen, would you comment?
    Mr. Wilshusen. Right. This is based upon our review of the 
agencies and the I.G.'s FISMA report that they are required to 
submit. The I.G. noted that one of the State Department's 
systems could not be located. Due to its methodology and the 
scope of its work, it concluded that the State Department did 
not have a complete inventory.
    But certainly, one of the things to consider in terms of 
the separation of classified and unclassified networks is that 
if there are any interconnections between the two, it could 
raise a significant security violation. Not to say that that 
occurred at State Department, because we have not conducted 
tests at the department in reviewing the security over those 
two types of networks.
    Mr. Langevin. Do you share my concern that even if the 
information is ``unclassified,'' that it could very well be 
sensitive information that later becomes classified that could 
have been compromised originally?
    Mr. Wilshusen. Of course. Sensitive information of various 
different types, particularly when aggregated together, could 
raise the level of sensitivity to that information. There is a 
lot of highly sensitive information that the government retains 
and that you do not want out in the public domain and certainly 
do not want a hacker or some other group to have that 
information.
    Mr. Langevin. I agree.
    The chair now recognizes the ranking member, my partner in 
this effort, the gentleman from Texas, Mr. McCaul, to ask some 
questions.
    Mr. McCaul. I thank the chairman.
    I mentioned in my opening statement, really three types of 
hacking that could occur, and there may be more, but one would 
be just for mischief purposes, say, a teenager hacking in. 
Another one would be espionage to try to get information, steal 
information, intellectual property. And the third would be a 
direct attack on the United States, a direct attack from a 
rogue nation or a state sponsor of terrorism. I think the last 
scenario would be the gravest.
    I will ask about the protocol with the military. Why don't 
I just ask that first? If you can't answer this in a public 
forum, I will grant you that. Do you have any protocol with the 
United States military in the event there is a perceived 
threat, a direct attack on the United States from a rogue 
nation or a state-sponsored terrorist?
    Mr. Reid. In terms of do we have relationships built up?
    Mr. McCaul. A protocol?
    Mr. Reid. Certainly. The global network operations joint 
task force that is run by Strategic Command is a big player in 
the computer network defense community. We interrelate with 
them all the time. We are sharing analytical information back 
and forth all the time. Again, Homeland Security is a key 
interface for us with those relationships.
    Mr. McCaul. Getting to the specific intrusions, Mr. Reid 
had one. You talked about one Mr. Jarrell, and I will get to 
you, Mr. Dixon. Can you comment publicly on the source of these 
intrusions?
    Mr. Reid. The chairman indicated that they had their source 
in China, but these are hackers. These are people intruding 
into our systems using a sophisticated method to do it(and e-
mail with hidden malicious code. Any hacker is covering their 
trail. So the fact that the last place they were at was in 
China doesn't necessarily mean that this was a state-sponsored 
attack.
    The community as a whole, the computer network defense 
community as a whole, works on this attribution issue very, 
very hard. It is just tough to nail these things down.
    Mr. McCaul. So it is difficult to determine the source?
    Mr. Reid. Most definitely, the original source.
    Mr. McCaul. Mr. Jarrell?
    Mr. Jarrell. Yes, sir. Actually, before we discovered the 
incident on the BIS network, we worked closely with US-CERT, 
but at the same time we try to depend on multiple sources of 
information to be able to derive our intelligence. We work with 
DOD's Joint Task Force for Global Network Operations, JTFGNO. 
So they are aware of the issues, as well as the Department of 
Homeland Security, US-CERT and the GFIRST.
    After we experienced the incident that we did, and we 
reported to US-CERT, and that is our obligation to report to 
U.S.-CERT, we met with both US-CERT and JTFGNO to share 
information so that while we don't have a protocol necessarily 
to deal directly with the DOD environment, we wanted to pull 
and derive information from them. That has proven to be useful 
for us, so that we can gain a more broad perspective on the 
incidents that were occurring, and we would be able to benefit 
from that process and information.
    We are in a situation as well, sir, that we can't 
definitely say the source of the attack on those BIS computers.
    Mr. McCaul. Mr. Dixon, you quoted a very high number of 
over 20,000 incidents on the federal government. Is that 
correct?
    Mr. Dixon. Those incidents include incidents from private-
sector entities as well as the government. I would say the vast 
majority of those incidents for last year were actually from 
the private sector, so they could range from malicious code to 
phishing, with the issue involving identify theft; malicious 
Web sites. A majority of those things are being reported to us 
from corporations, as well as home users, and are called into 
the US-CERT.
    Again, the majority of those were last year within the 
private sector. This year, with the advent of reporting 
personally identifiable information to us, that is where we 
have seen a large increase based on OMB management directives 
to report those to us within 1 hour.
    Mr. McCaul. Were any of those incidents attempts to hack 
into the computer networks of the United States Congress?
    Mr. Dixon. We have worked incidents with both branches of 
government. We have worked with the chief information security 
officers on the House and the Senate side. That is pretty much 
it. We can talk in more detail in a different setting.
    Mr. McCaul. I understand.
    My next question is to the GAO. What is your recommendation 
regarding the responsibility of DHS regarding cybersecurity for 
the federal government? Do you see them having a role as a 
chief information security officer for the federal government?
    Mr. Wilshusen. I think that would present some challenges 
if they were to fulfill that role. One, under current law, 
FISMA, it requires and gives responsibility to the director of 
the Office of Management and Budget to oversee and coordinate 
the federal implementation of information security controls, as 
well as coordinating the development of those standards.
    FISMA also assigns specific responsibilities to the heads 
of agencies, and makes them specifically responsible for 
safeguarding the information assets under their department. 
Having DHS in particular, and I am not sure which individual in 
there, but someone at the assistant secretary level being able 
to compel other agencies and secretaries of other agencies 
could be somewhat problematic from an organizational placement 
of that.
    In addition, it would also be appropriate that DHS first 
assume or assure that its own security is effective and that 
they have taken actions to fully and effectively implement an 
information security program before trying to be responsible 
for the full federal government.
    Mr. McCaul. Thank you.
    Mr. Chairman, are we going to have one round of questions?
    Mr. Langevin. If we have time, I am inclined to go for two 
rounds. I know we are expecting a vote soon, but I am inclined 
to go for a second round if our witnesses can stay.
    Mr. McCaul. My time has expired. Thanks.
    Mr. Langevin. I thank the gentleman.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me thank you and commend you for holding this hearing. 
I hope this is the first of many because the issue that we are 
talking about is so vast and it is rapidly evolving and 
continues to evolve. I think all of us recognize this is going 
to be central to what we do in the 21st century. One hearing 
does nothing more than scratch the surface of what we need to 
be about and stay on top of.
    Mr. Jarrell, let me ask you a question. Your description of 
the break-in in the Commerce computers is troubling. It is 
troubling on many levels to me. In your testimony, you note 
that the date and duration of illegal access is still unknown, 
and the extent of information compromised may never be known.
    My question is, how confident are you that the information 
at Commerce is now secure?
    Mr. Jarrell. I am very confident, sir. The reason that we 
don't know the date or the source of the infection on that one 
account is because of our audit logs and the duration that we 
retain those audit logs. So it is unfortunate that we are 
unable to pinpoint that point of action and activity on the 
system.
    Mr. Etheridge. Have you changed the protocols on that so 
you will be able to know in the future?
    Mr. Jarrell. We are doing that now, sir. Yes, sir.
    Mr. Etheridge. So I assume that would be one step you have 
taken to improve it.
    Mr. Jarrell. Absolutely.
    Mr. Etheridge. All right. Let me follow that up. For 
example, the incident at BIS was identified by a user accessing 
his computer with a simple password, is my understanding. 
Numerous guidelines from NSA, DOD and NIST recommend at least 
two.
    Have you implemented these recommendations for privileged 
personnel now? Why were they not used in the past, I guess, is 
the question I really ought to be asking.
    Mr. Jarrell. We are looking at two-factor authentication as 
part of our new protocol and our new process for access to 
systems, including any remote access or remote administration 
of those systems. We are working towards meeting the intent of 
FISMA and the OMB guidance that we are provided. We are in the 
process of doing that now.
    Mr. Etheridge. Do you have a date where you want to have 
that implemented?
    Mr. Jarrell. We are actually working to establish contracts 
with vendors that can provide that kind of technology to the 
Department of Commerce, so that we can deploy that throughout 
the entire department's 13 agencies.
    Mr. Etheridge. With the goal for?
    Mr. Jarrell. We are hoping to have that done this fiscal 
year so that the contract is established, and then we would 
have a roll-out schedule into fiscal year 2008.
    Mr. Etheridge. Okay. Thank you, sir.
    Mr. Jarrell. Yes, sir.
    Mr. Etheridge. Mr. Wilshusen, is it possible to determine 
after an attack the full extent of the damage? For example, can 
logs be altered to hide the nature of the attack?
    Mr. Wilshusen. Yes, they can. It is a very difficult 
process to go through and try to determine the extent and the 
amount of damage that could occur from such an attack, 
particularly if the attackers have the ability and the access 
to delete audit logs and other system logs.
    In addition, if they are adequately masquerading their 
tracks, it makes it more difficult, as we have already 
discussed here, determine the ultimate source of the attack. So 
it can be difficult to do that.
    Mr. Etheridge. I raise that question because I think as we 
deal with this, we need to all get a pretty good grasp of the 
challenge we are facing as we put more and more data at risk. 
That is really what we are doing.
    Mr. Wilshusen. Right. And also the extent to which the 
organization is able to determine the extent of the damage also 
depends upon how well that organization is logging and 
monitoring its networks on an ongoing basis. So that also has 
an impact on how prepared an agency is in order to identify and 
detect these types of intrusions.
    Mr. Etheridge. Let me ask you one additional question, 
before I go to Mr. Dixon. It seems to me we need to do a much 
better job of letting our personnel know how vulnerable we are 
and how important it is to have security on the station they 
are working on.
    Mr. Wilshusen. That is absolutely correct. Indeed, one of 
the best defenses is to have security in depth. That means to 
have multiple layers of security from various different points 
of vulnerability, to include assuring that users and agency 
personnel are fully aware of the risk and their 
responsibilities in mitigating those risks and practicing safe 
computing.
    Mr. Etheridge. Thank you.
    Mr. Dixon, how does the Department of Homeland Security 
learn of instances such as those at Commerce? And how confident 
are you in the department's ability to analyze and prevent such 
incidences?
    Number two, is it possible to know the extent of our 
vulnerability and what can we do to increase our knowledge and 
reduce the threat?
    Mr. Dixon. In both instances, we were notified directly by 
their operational security teams and made aware of the 
incidents. They also shared with us the technical details and 
the information. As we do with pretty much all incidents that 
are reported to us, offer our assistance to help out any way we 
can. If it is related to a vulnerability, especially a brand 
new vulnerability, we will work with the affected vendor to, 
one, try to see when can it be fixed, and what are the options 
to mitigate it.
    We also communicate with the government performance and 
response teams which has over 400 members from all the various 
operational security teams across the federal government and 
state and local governments. We have a program called Einstein 
that basically, we often get asked the question, who is 
affected or how bad is it across the U.S. government. Sometimes 
this question comes from the private sector. Sometimes it is 
from other agencies.
    The way it used to work is we would have to call each and 
every operational security team, leverage GFIRST, make the 
request--can you let us know whether you have seen this type of 
malicious activity. They would then, and it would take a couple 
of days to actually go through logs of their security 
infrastructure to make that determination if they were seeing 
it or not seeing it, report that back, and then we can report 
back to everybody.
    Mr. Etheridge. Let me interrupt--and I know I am running 
out of time, Mr. Chairman. I am over.
    What is your budget?
    Mr. Dixon. It is $97 million.
    Mr. Etheridge. Do you do preemptive work, rather than just 
reactive?
    Mr. Dixon. Yes, sir. US-CERT is the operational team and 
then we have proactive programs across the National Cyber 
Security Division, like software assurance.
    Mr. Etheridge. Thank you, Mr. Chairman. You have indulged 
my going over and I appreciate that. Thank you.
    Mr. Langevin. I thank the gentleman.
    The gentleman from Texas, Mr. Green, is recognized for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. Thank you and the 
ranking member for hosting this hearing. I will be terse.
    Let's start with the rootkit program. Mr. Dixon, this 
technology, is this something that is in the hands of your 
typical hacker or person who desires to perpetrate mischief?
    Mr. Dixon. Yes, sir. Many types of rootkits are available 
for download from the Internet. They are on varying levels of 
skills that can be used, depending on the level of how they go 
about social engineering it, whether they are doing targeted e-
mails to specific individuals. That tends to increase the level 
of sophistication because they have to have some knowledge of 
that organization. But a lot of these things are readily 
available on the Internet that can be downloaded and pushed 
out.
    Mr. Green. Let's go next to the zero-day exploit. If we 
have such an occurrence, is it true that the communication, the 
means by which you communicate the actual penetration is thus 
far confined to the department that had the zero-day exploit? 
Is this true?
    Mr. Dixon. When you say was it combined, actually with that 
particular situation with the zero-day vulnerability, we were 
actually trying to determine were there other victims or other 
folks affected, and was it in fact targeted. We actually worked 
with probably about five other organizations to determine, are 
you seeing activity characteristic of this. At the same time, 
we were working with the vendor. They also have their network 
of contacts. We were trying to see if there was any other 
active exploitation.
    Mr. Green. Let me intercede and ask, is there a protocol 
that requires you to share this information with other agencies 
that have not suffered the exploit?
    Mr. Dixon. We have information sharing guidance within our 
US-CERT concept of operations, which was vetted to an 
interagency process. So basically, again if this was being more 
actively exploited when we talked to our partners within the 
Department of Defense and other agencies, we would have quickly 
went public with this. We put basically Microsoft on notice.
    However, we did not find that, and found it to be targeted, 
and we did not want to run the risk of somebody actually 
developing tools to take advantage of it. In that particular 
instance, it was what was called ``wormable,'' meaning an 
automated script or program could have taken advantage of that 
vulnerability that affected all Microsoft operating systems, 
which is why we exercised extra caution and sensitivity around 
that particular vulnerability.
    Mr. Green. Final question. Let's talk about the I.P. 
number. This is the equivalent of a fingerprint for a computer, 
generally speaking. It gives you the location. It doesn't 
necessarily take you right to the source, but at least you get 
in the area, the geography of the source. Is this a fair 
statement?
    Mr. Dixon. An I.P. address does give where the traffic 
might be originating from. However, a lot of organizations and 
corporate networks, for instance, use what is called dynamic 
I.P. addressing, meaning that they might get a different I.P. 
address every time they boot up their machine or log on on a 
different day.
    Also, a lot of attackers tend to hide where they are coming 
from, so there are various points, because the Internet is 
global. So they can make it appear to be coming from a 
different source than where it really is coming from. It is 
very easy to hide their tracks.
    Mr. Green. All right. Thank you. That was what I wanted to 
get to, the ability to mask the location by the variations of 
I.P.s. But is it also possible to defeat the technology in some 
other way? As far as throwing persons who are trying to 
ascertain where you are off track?
    Mr. Dixon. Yes, sir. There are a number of ways to hide 
where you are coming from. Some actually might modify the I.P. 
address to do what is called modifying the traffic, and put in 
there a bad I.P. address. So it is not that difficult. There 
are actually tools out there that you can download from the 
Internet to facilitate making that happen. There are tools out 
there called ``onion routing,'' which basically makes you 
pretty anonymous on the Web and from where you are coming from. 
So there is a lot of capability there to hide your tracks.
    Mr. Green. Perhaps this is something that is not at your 
level to respond to, but is there a way, and I beg that you 
would just consider the question, is there a way for Congress 
to help you with all of these various Internet providers who 
are continually giving out information that is antithetical to 
our best interests.
    Mr. Dixon. We have a process, and a great working 
relationship with many of the Internet service providers. To 
give an example, when folks had come under attack from denial 
of service attacks, they have been effective and instrumental 
in actually helping what we call ``black holing'' the traffic, 
making that traffic disappear.
    Where that is really important is folks that are running 
electronic com making that traffic disappear. Where that is 
really important is folks that are running electronic commerce 
sites, or critical Web services. We have what is called the 
Internet Disruption Working Group, and we work very closely 
with the North American Network Operators Group.
    The operational relationships that we have developed with 
those organizations have really been essential on tackling some 
of the issues that we are facing.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Langevin. Thank you.
    We have two votes on, and then we have the second panel 
coming up. We brought you all the way up here, and I would like 
to make productive use of the time. Would the panel be willing 
to stay while we have two votes? We will come back and we have 
one more brief round of questions, and then go to panel two. I 
appreciate that.
    The committee stands in recess.
    [Recess.]
    Mr. Langevin. The meeting will come to order. I thank the 
witnesses for staying. We will try to wrap this up as 
expeditiously as possible.
    I would like to turn just if I could to Mr. Jarrell for my 
initial question, because I want to give you the opportunity to 
respond to something I brought up in my opening statement. That 
is with respect to what your department did with respect to its 
administrative policies after the cyber attack had occurred. If 
you want to take a minute to respond to that?
    Mr. Jarrell. Absolutely. As we put controls in place to 
identify infected computers on the BIS network, we removed 
those computers from access. We pulled the drives and we 
quarantined those drives. As a result, we did not reintroduce 
those to our system. They were quarantined. They remain in 
quarantine today for any potential forensics evidence needed to 
support any initiatives.
    So as a result, we did not reintroduce those infected 
drives, but also we didn't trust the data that was stored on 
those drives. As a result, we did not reintroduce the 
information on to the network on the off-chance that it may 
compromise issues. So we worked from clean systems.
    In addition, sir, with regard to authentication changes, we 
suspended all of our BIS accounts because we believe they were 
suspect, so we expired those accounts immediately and required 
that all of our users reauthenticate themselves, and we 
continue to do that. We went from a 90-day process for user 
account lifespan to now 30 days. So we are significantly more 
aggressive in making sure that those accounts are being used by 
proper authorized personnel.
    In addition to that, we added a second layer of control by 
requiring that anyone with administrative privilege on that 
network requires a second level of authentication to the 
system. It increases our security significantly, we believe.
    Mr. Langevin. I appreciate you addressing this for the 
record. Thank you. Thank you for clarifying.
    Mr. Reid and Mr. Jarrell, both of your agencies received 
F's on FISMA. Let's just say for exploration purposes, pretend 
that you both received A-pluses for this year. Would that, in 
your opinion, have stopped the attacks from occurring? If 
everything possible were done with respect to security in terms 
of within our capability to do it today, would that have 
stopped the attacks?
    Mr. Reid. Mr. Chairman, in my opinion, no. The socially 
engineered e-mail would have bypassed any CAA system, and all 
of our systems have been certified and accredited. We certainly 
knew about them, whether they were part of a formal inventory 
or not.
    I think FISMA I believe has been in existence for 5 years 
now. It is a great baseline law that we clearly have more work 
to do with at State to be able to achieve its objectives. But 
there are other things going on that it is not measuring, and 
we feel that that is an aspect of FISMA that doesn't quite tell 
the whole story.
    For instance, our ability to detect and respond to the 
intrusion, nowhere is that measured in FISMA, and yet I have 
some terrific capability that is there to do just that. So we 
feel that we have a great capability for detecting these 
things.
    Congressman McCaul, you talked about espionage, terrorism, 
and other kinds of things. Well, there is a criminal threat out 
there also that is growing dramatically in terms of threat.
    We have to be able to see these things as they come into 
our systems, and be able to detect them, be able to respond to 
them, be able to mitigate them. My belief is that FISMA doesn't 
measure those kinds of things very well.
    Mr. Langevin. Mr. Jarrell?
    Mr. Jarrell. We focus a significant amount of attention on 
FISMA compliance through certification, accreditation, and 
other variables. Anytime that we can have management and our 
executive staff's attention on the security of our 
infrastructure and our data, it is a good thing, because we 
need more eyes on the ball.
    That said, a system that has been graded as an A with full 
FISMA compliance and understand that the certification and 
accreditation process that we go through on a routine basis is 
a snapshot in time, meaning that that snapshot in time looks at 
the system as it was configured at that given time. From the 
next day forward, any change or the introduction of new 
technology or even a new user on that system, changes the 
variable you looked at the day before.
    Again, FISMA is a great tool. It is a great asset to us to 
be able to look at the controls that we put in place. Incident 
response, zero-day vulnerabilities, those kinds of things 
change the process and the way that we have to look at this 
issue. So having FISMA is a great tool. Having the ability to 
put more technology in place so that we can secure that system 
is also as great an issue. It seems that there needs to be more 
of a balance between FISMA and introduction of this new 
technology.
    Mr. Langevin. Mr. Wilshusen, let me ask you, what does it 
say about our information security laws? Somebody can get the 
highest score possible on our scale, but still be vulnerable to 
being hacked or losing critical information.
    Mr. Wilshusen. I think it goes and speaks to how we measure 
the effectiveness of security at federal agencies. Clearly, the 
performance measures that OMB has established and its reporting 
instructions for federal agencies to report under FISMA, and 
the reporting requirement under FISMA, focus on the performance 
of certain control activities. Those measures do not focus on 
the effectiveness of those activities.
    So I kind of would mirror what Mr. Jarrell has indicated, 
that just performing certain activities does not necessarily 
mean that they are being performed effectively. And certainly 
with what Mr. Jarrell indicated about certified and accredited 
systems, just because a system is certified and accredited does 
not make it necessarily secure, for some of the reasons that 
Mr. Jarrell cited.
    Certainly, I agree that the law as written has been very, 
very positive in improving security within the federal 
government, because it has raised the level of attention to 
information security and assigned specific responsibilities to 
key officials in the government and at federal agencies.
    It also is based upon key and important information 
security practices and processes. Those are valid(the ability 
to assess your risk, develop policies and procedures that are 
risk-based, that cost-effectively reduce those risks, assuring 
that your staff and contractors are appropriately trained and 
are made aware of the risk that they need to protect against; 
conducting security testing and evaluation to assess the 
effectiveness of your controls, and then identifying 
vulnerabilities and taking effective and immediate remedial 
actions to correct those vulnerabilities.
    Those are the requirements of FISMA, among others, and 
those are valid today, as they were 4 1/2 years ago when it was 
passed. The dichotomy has kind of arranged where receiving the 
higher grade or doing a good job under the performance measures 
is more an indication of what the measures we are using to 
assess security implementation.
    Mr. Langevin. We have a lot of work to do. Thank you.
    I will recognize now the ranking member, the gentleman from 
Texas, Mr. McCaul, for the purpose of asking questions.
    Mr. McCaul. Thank you, Mr. Chairman.
    I asked the question in the last round about the role of 
DHS as a chief information security officer for the federal 
government. If I am not recounting this correctly, let me know, 
Mr. Wilshusen, but your response was that until DHS can really 
get its own act together, you wouldn't recommend that. Is that 
a fair assessment? If not, why don't you answer that?
    Mr. Wilshusen. I did not use those terms exactly.
    Mr. McCaul. I know. I am paraphrasing.
    [Laughter.]
    I did say ``paraphrase.''
    Mr. Wilshusen. Okay. I think that is part of it. I also 
think just the organizational placement of DHS versus perhaps 
someone in maybe the office of the president. Certainly, DHS 
has a very important role to play in the analysis and warning 
capability, and because it is ideally suited for collecting and 
reporting all of the security incidents within the federal 
government, and being able to analyze that and provide that 
service to other federal agencies, as well as to organizations 
outside of the federal government.
    I would also kind of like to introduce Dave Powner here, 
who has been doing some work in that space.
    Mr. Powner. One other factor to consider, if you look at 
their roles and responsibilities, and we have done work for 
this committee over the years looking at DHS and the National 
Cyber Security Division roles and responsibilities in 
furthering private-sector security and working with the 17 
sectors.
    There is a lot of work to do. We talk a lot about the US-
CERT capabilities, and they are doing some good things through 
their Einstein project. We need to expand those capabilities. 
We need to do a lot more with threat identification, coming up 
with national threat assessments, partnering with the private 
sector.
    So one factor to consider, too, is given all those 
responsibilities and the long road ahead, if you levy that 
requirement on an assistant secretary, you are really 
overburdening them. I don't think it is the time right now to 
do that.
    Mr. McCaul. Mr. Dixon, do you have any comment on that?
    Mr. Dixon. Right now, the CIO is responsible for the 
protection of the data within their networks, as well as their 
information technology assets. I think, again with FISMA and 
just to touch on the certification and accreditation process, 
part of FISMA also includes ongoing vulnerability assessments, 
penetration testing, and really managing risk within your 
environments.
    Not just doing FISMA for the sake of reporting, but 
actually leveraging it as a tool in your toolkit to defend your 
networks, to raise awareness. When you have operational issues, 
the certification and accreditation information lets you know 
how many systems in critical applications do you have across 
your enterprise. It helps you to quickly assess how bad is it 
in my environment when we do have a malicious event.
    Back to your question, I think we have a significant 
mission to date, being a facilitator and helping organizations 
tackle the issues. We were just with the CIO council yesterday 
for all the departments. We provide them quarterly reports of 
incident trends within their department. We do that quarterly 
and annually, as well as we take a look at here is how you sit 
from the rest of the government, based on reporting coming into 
us, showing the trends and things that are coming up; here are 
some potential recommendations to maybe help you tackle some of 
these issues that you are facing.
    So again, with the amount of information that we are 
getting not only from government, from the private sector, and 
being able to provide that back to key decision makers to 
prioritize where they focus their efforts is an effective 
approach.
    Mr. McCaul. So am I correct in saying you are actually in 
agreement on this, that the role of coordinator and point of 
contact is the preferred role for the Department of Homeland 
Security on this?
    Mr. Dixon. I think the current role that we are playing 
today is effective, and our capability is continuing to mature, 
and there is still a lot to be done. I think that the 
authorities of the CIOs, the effective person that knows the 
business applications within their environment, for some 
outside entity to be able to try to get a handle on their line 
of business, whether it is in the tax collection business or 
whether it issuing Social Security numbers, passports or 
visas--that is a pretty tall order to take on.
    Mr. McCaul. Another question. I think Mr. Reid talked about 
when you had the intrusion, you consulted with Microsoft for a 
patch. Could you expand on this, or Mr. Dixon, I would be 
interested in this from your vantage point, in terms of the 
coordination of the department with the private sector in 
securing these network systems. I would go ahead and start with 
you, Mr. Dixon.
    Mr. Dixon. I guess I am not following the exact question. 
Can you clarify?
    Mr. McCaul. In terms of coordination with the private 
sector, I mean, the private sector has the answers, in my view. 
They are on the cutting edge, not the federal government. What 
role have you played or what role has the department played, or 
do we need to play a greater role in coordinating with the 
private sector?
    Mr. Dixon. The private sector is an essential partner in a 
lot of the issues that we are facing today, whether it is an 
operating system vendor. If we come across activity based on 
our experience, if we need to get security definitions or any 
virus signatures pushed out there based on these types of 
incidents, how do you get it out to the broadest audience? The 
way to do that is to work with those security vendors, get them 
the information.
    Sometimes we do it in a sensitive way. Folks don't realize 
it. We pass to them, here is what we are seeing. They will 
incorporate it into their products so that it will not only 
clean or quarantine or prevent further victims. Again, we take 
operational information we get on a routine basis, get it to 
the information security folks to help protect a larger 
enterprise, because again they are the ones that are out on the 
frontlines. They are the ones that have the products to get 
across to corporations, infrastructure operators, as well as 
government agencies.
    Mr. McCaul. Mr. Reid, do you have any comment?
    Mr. Reid. I was just going to say, we look to DHS for that 
kind of support and help. They have the best relationships with 
Microsoft. We are up to our eyeballs in things to do anyhow. 
About the most clout we could have put forward would have been 
our CIO, possibly the under secretary for management. The 
reality is they already have established relationships with 
Microsoft. This is something that has to be dealt with as 
quickly as possible, and they were in the best position to do 
it.
    Mr. McCaul. Yes, go ahead.
    Mr. Dixon. To further that, we are partnered, obviously. 
Under our assistant secretary, you have the national 
communications system, and within that they have the national 
coordinating center, which is made up of a lot of the major 
Internet service providers and telecommunication providers. We 
also have direct ties with a lot of the technical vendors out 
there, the I.T. vendors.
    We are looking to further enhance and bring more of those 
folks into the fold because when we are dealing with some of 
these issues, and again with some of these zero-days, we don't 
have the capacity or the expertise to really know is this 
something new, how bad is it. We have work with those that 
actually develop that software. So we are trying to bring those 
more into the fold to help us in that major event, and also to 
figure out how can we quickly mitigate it.
    I think the partnership with the recent standard 
configurations, one is XP and VISTA, that are being promulgated 
in partnership with OMB, NIST, NSA, and ourselves and the Air 
Force, is really going to go a long ways to improving the 
security posture of a lot of the agencies, getting to minimum 
baseline security standards. Again, that was through 
partnerships and working with vendors.
    Mr. McCaul. Thank you. I yield back.
    Mr. Langevin. The gentleman from California, Mr. Lungren, 
is recognized for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I wish I 
had been able to be here, but three different things at once is 
difficult. I will master that if I keep working at it.
    Let me ask a more general question of all of you there. 
That is this, and we see this in the private sector, but I 
would like your observation about the federal system.
    Cybersecurity is an important issue that is not always so 
obvious to the many people that are involved in an enterprise. 
You can see the various physical structures that we have to 
stop trucks from ramming in here and so forth, and everyone can 
recognize that. It is easy to tell your employees, if you see 
something suspicious that relates to that, do something about 
it.
    But my suspicion is that it is much more difficult to get 
us trained to understand this in the cyber world from the top 
to the bottom. One of the things I ask CEOs in the private 
sector is, how seriously do you consider the issue of 
cybersecurity? What kind of heft do you put behind those 
elements of your corporation that are dealing with that?
    And so I guess my question to all of you is, from your 
perspective, what is the level of concern that we have been 
able to relate to the employee base at large with respect to 
cybersecurity, number one.
    Number two, what more do we need to do to embed that in the 
experience of our people?
    And third, and perhaps as importantly, how seriously do the 
top people in the departments of the federal government take 
this, and what kind of a priority have they placed on it?
    I would love to have observations from all of you.
    Mr. Wilshusen. I guess I will go ahead and start.
    One, I think the level of attention to information security 
and cybersecurity issues is definitely increasing throughout 
the federal government. In part, that is due to the 
requirements specified by FISMA, but also due to the data theft 
that occurred last year at the Veterans Affairs. It was that 
incident that affected so many individuals, or potentially 
could have affected so many individuals that I think it really 
opened up the eyes of many in the federal government throughout 
all the federal agencies.
    During hearings that were held in response to that 
incident, it was estimated that it could potentially cause 
between $30 to maybe $50 or $100 per veterans whose information 
was potentially lost. When you start multiplying that by 26.5 
million, that ends up to be a very large amount. So I think 
individuals and agencies started to realize, they, this is very 
important and it does have costs, not only in terms of monetary 
costs, but the effect on veterans and citizens if the federal 
government loses their information.
    Subsequent to that, we noticed an up-tick in the number of 
incidents that have been reported, particularly at VA. So that 
is not to say there are more incidents, but the staff and 
agencies are more attuned to the need to report on those 
particular incidents. So I think the level of attention is 
increasing, in part due to those factors.
    Mr. Reid. I certainly agree. There is a lot more attention 
within the State Department to this issue, not only because of 
our own exploits, but because of the trends across government 
as a whole. Secretary Rice is a strong supporter of our 
initiatives in cybersecurity.
    On a day-to-day basis, however, that function falls to the 
under secretary for management. One of the things she did was 
to last year reach out and bring in a new CIO at State. We have 
had some very dramatic changes and directions that are positive 
for the department.
    He, in turn, reached out to an A-plus organization and 
brought on board a new chief information security officer, who 
is my colleague, John Straford, who joined me here today.
    Congressman you do point to the weakest link in everything 
we have been talking about here, and it is the human dynamic. 
It gets right down to the individual, and what kind of damage 
can they cause intentionally or unintentionally.
    So we, I am sure like other agencies, we have programs in 
place to try and make our employees aware, to educate those 
that need further education in terms of what their roles and 
responsibilities are in the I.T. world. We have a sanction 
program for monitoring their behavior on the computer and 
taking action if they exceed their authorities and things.
    So we are trying a variety of things, but at the end of the 
day, it is that human factor that is very, very difficult to 
control.
    Mr. Jarrell. I hope that some part of our I.T. security 
program remains invisible to the user. There are a variety of 
different things that I mean by that. We have intrusion 
detection and intrusion prevention systems that sit on our 
network. The user does not interact with them. And those are 
significant tools to ensuring the security part of our network. 
So we continue to maintain those kinds of issues.
    There is always the FISMA variable. There is always the 
user awareness and the role-based training requirements that we 
impose on our staff when they have general access to a system, 
versus someone who has administrative authority to our systems, 
and there is a significant change in that authority that is 
given to that account.
    So some things we want to keep behind the scenes; some 
things we are going to bring to the forefront. We want our 
users to engage us when they access our system by signing rules 
of behavior that talk about how they should and how they should 
not act on our networks, what they can and what they cannot do. 
We believe that those are good steps towards educating our 
users and keeping security at the forefront of all of the 
things that we are trying to deal with.
    Our CIOs have made I.T. security a priority because of 
FISMA compliance, because of report card grades, but more 
importantly because of the security of our data and the 
infrastructure that we prepare to support and carry out our 
mission goals. Things like PII, personally identifiable 
information, get our department's highest level of attention, 
where we report weekly on those issues, so that our executive 
staff is fully aware and makes sure that our bureau agency 
heads are fully accountable for those issues.
    Mr. Langevin. I thank the gentleman.
    I want to thank the panel for their testimony here today. 
It has been very helpful and informative. We look forward to 
having you back again and continuing to work on this issue 
together.
    Thank you very much. The panel is dismissed at this point, 
and I call up the second panel.
    I want to welcome the second panel of witnesses.
    Our first witness, Mr. Aaron Turner, is the cybersecurity 
strategist for the Department of Energy's Idaho National 
Laboratories. In his role, Mr. Turner applies his experience in 
information security to collaborate with control systems 
experts, energy management engineers, and homeland security law 
enforcement officials to develop solutions to the cyber threats 
that our critical infrastructure is currently facing.
    Before joining INL, Mr. Turner worked in several of 
Microsoft's security divisions for 7 years, including as a 
senior security strategist within the security technology unit, 
as well as the security residence manager for the Microsoft 
sales, marketing and service group, where he led the 
development of Microsoft's information security curriculum for 
over 22,000 of Microsoft's field staff.
    Our second witness, Mr. Ken Silva, is the chief security 
officer for VeriSign. As VeriSign's chief security officer and 
vice president for networking and information security, Mr. 
Silva oversees the mission-critical infrastructure for all 
network security and production I.T. services for VeriSign. In 
this role, he oversees the mission-critical network 
infrastructure for VeriSign's three core business units: 
security services, registry services, and telecommunications 
services.
    Mr. Silva's responsibilities include oversight of the 
technical and network security, the definitive database of over 
27 million Web addresses and dot-coms and dot-nets, the world's 
most recognizable top-level domains. Responding to over 14 
billion DNS lookups daily, the platform includes the critical 
infrastructure for the 13 globally deployed, global top-level 
domain-name servers answering domain-name system requests for 
all dot-com and dot-net domains and the A-route server. The 
Internet's ``dot'' is the hierarchical top of the Internet's 
route server system and is the most heavily utilized domain-
name server.
    Additionally, Mr. Silva coordinates the security oversight 
of VeriSign's public key infrastructure, security systems that 
authenticate over 500,000 merchants on the Web in VeriSign's 
payment gateways that handle 25 percent of all the e-commerce 
online transactions in North America.
    I want to welcome both of you here today.
    Without objection, the witnesses' full statements will be 
inserted into the record. I would like to ask each witness now 
to summarize their statement for 5 minutes, beginning with Mr. 
Turner.
    Welcome, gentlemen.

 STATEMENT OF AARON TURNER, CYBERSECURITY STRATEGIST, NATIONAL 
        AND HOMELAND SECURITY, IDAHO NATIONAL LABORATORY

    Mr. Turner. Good afternoon. Chairman Langevin, Ranking 
Member McCaul and distinguished members of the Homeland 
Security Committee, thank you for this opportunity to address 
you today.
    To introduce myself, my name is Aaron Turner. I have been 
an information security practitioner since 1994. The vast 
majority of my experience was gained in responding to 
information security incidents in 20 countries around the 
world. Based on that experience, I have been invited to 
participate in several global information security efforts. In 
7 years working in Microsoft's security divisions, I had the 
opportunity to participate in global information security 
improvement programs.
    When I found out about the Idaho National Laboratory's 
critical infrastructure protection programs, I was immediately 
interested in working with the INL's talented group of control 
systems experts. I joined the lab in September of 2006. I 
continue to be impressed by the INL's unique facilities that 
allow large-scale testing and research. These programs that INL 
conducts are funded through national-level programs sponsored 
by the Departments of Energy, Homeland Security, and Defense.
    I would like to focus my remarks on historical lessons that 
we have learned from complex systems that rely on technology, 
and how an over-reliance on technology can lead to system 
imbalance and subsequent corrections. The quality of life that 
we enjoy today is built upon the successful implementation of 
technology. Our society is what it is because of improvements 
in efficiency and productivity that technology brings us.
    But when we implement technology for the sake of 
efficiency, without regard for vulnerabilities, the 
consequences can be significant. The first historical example 
that I would like to share is based on the financial markets of 
the early 20th century. Facilitated by the widespread use of 
technology such as the telephone and ticker-tape, it was the 
first time that we could create a truly national financial 
market. But these communications technologies did not 
necessarily assure equal access to information. The result of 
the use of communications technologies without a level playing 
field was the system correction of 1929.
    Another example of large-scale system corrections are the 
Internet worm incidents of Slammer and Blaster in 2003. In the 
years preceding, there were widespread connections of Internet 
systems to each other. Without sufficient security controls for 
those systems, it resulted in an overall Internet system that 
was imbalanced, where a few individuals were able to impact 
millions of Internet-connected systems.
    There is an important system vulnerability pattern that we 
need to recognize based upon these two historical examples. 
Usually, the system vulnerabilities always begin with small-
scale exploits. Where exploit capability increases, criminals 
begin to extort system owners or take advantage of them 
economically in taking the systems hostage. As the underground 
hacking or attacker community takes notice of the extortions, 
they begin to build automated vulnerability tools that are 
released. This results in non-experts being able to create 
vulnerabilities on a wide scale for widespread system 
compromise.
    So as we take a look at those two historical examples, 
where are we today with regards to control systems security? 
First, we should note that control systems are the 
technological components that automate the services that we 
rely on such as electricity, potable water, petroleum refining, 
et cetera. It is important to note that most of our nation's 
critical infrastructure is privately owned, and infrastructure 
owners are subject to market forces and resource constraints as 
a result.
    These pressures have resulted in reduction of human 
operators which oversee these control systems, and an increase 
in the number of these systems that are connected to networks. 
Looking at the research that INL has conducted over the last 
several years in this area, we have gone out and worked with 
vendors of technology and private asset owners to conduct 
control system security assessments that have been funded by 
DOE and DHS. That research is important because from those 
assessments, we have been able to find and understand 
vulnerabilities in those systems. In the field assessments that 
INL has conducted, we have discovered high-impact 
vulnerabilities exploitable by low-skill-level attackers.
    Comparing the control system security situation to the 
vulnerability pattern I mentioned previously, where are we? In 
May of 2006, there was an extortion scheme perpetrated against 
infrastructure owners. In December of 2006, there was a release 
of an automated control system vulnerability tool set. Now, 
compared to other technology sectors, where are we with regard 
to control system security?
    We see a fragmented market with inconsistent responses by 
technology vendors and infrastructure owners. Control system 
security is lagging behind other technology sectors by years in 
the approach to the problem. INL's recommendation? We need to 
continue to prioritize and expediently address our nation's 
control system security issues. The use of technology in 
control systems has improved efficiency without the 
corresponding improvements in the ability to secure these newly 
connected systems.
    For those of us working in this area, the path is clear. We 
must continue to maximize cooperation among infrastructure 
owners and technology vendors, and understand and improve 
control system security across the entire life-cycle of this 
necessary and critical technology. While we cannot reduce the 
risks, we must work collaboratively to reduce the impact of the 
occurrences.
    Thank you very much.
    [The statement of Mr. Turner follows:]

                 Prepared Statement of Aaron R. Turner

    Chairman Langevin, Ranking Member McCaul and distinguished members 
of the Homeland Security Subcommittee:
     I am Aaron Turner, Cybersecurity Strategist for the Department of 
Energy's Idaho National Laboratory (INL). In my role, I apply my 
experience in information security to collaborate with control systems 
experts, industry engineers and homeland security/law enforcement 
officials to develop solutions to the cyber threats that our critical 
infrastructure is currently facing. Before joining INL, I worked in 
several of Microsoft?s security divisions for seven years--including as 
a Senior Security Strategist within the Security Technology Unit as 
well as the Security Readiness Manager for Microsoft?s Sales, Marketing 
and Services Group where I led the development of Microsoft?s 
information security curriculum for over 22,000 of Microsoft's field 
staff. I have been an information security practitioner since 1994, 
designing security solutions and responding to incidents in 20 
countries around the world.
    INL has a dedicated critical infrastructure protection research 
effort focused on control system security and technology risks. The 
U.S. government, recognizing the need to better understand the risk 
posed by the challenges that come with greater reliance on technology, 
has supported research and testing through voluntary partnerships among 
asset owners and operators, system vendors and the federal government. 
This effort includes extensive security assessments, testing security 
enhancements, developing risk measurement and mitigation tools, and 
providing security training to strengthen defenses.
     We participate in multi-year programs with a team of talented 
people including other national labs, academia and industry, based on 
their best-in-class core competencies and the needs of the program. 
This effort is funded by the Department of Homeland Security (Control 
System Security Program), the Department of Energy (National SCADA Test 
Bed or NSTB) and the Department of Defense. INL has also worked 
directly with critical infrastructure asset owners to assist companies 
and organizations with customized security services.
    The development of our nation's society and economy has been based 
upon our successful use of technology to improve efficiency and 
productivity--resulting in the quality of life that many U.S. citizens 
enjoy today. The implementation of technology-reliant systems has 
resulted in the creation of some of the most complex systems mankind 
has ever engineered. Key examples of these systems and their complexity 
include our nation's financial markets, telecommunications systems, and 
the national electric grid.
    History provides us with consistent lessons about complex systems 
and the way that they can impact our society and economy when they 
become unstable or are subject to critical vulnerabilities. There are 
two historical examples that we can focus on to learn important lessons 
about system complexity, security vulnerabilities in those systems, and 
the effects of having to respond to threats to those systems in an 
efficient and effective manner--specifically, the events surrounding 
the 1929 financial markets crisis and the world-wide Internet worm 
events of 2003.
    In order for complex systems to be efficient, they require balance. 
When they are out of balance is when they are most vulnerable, and 
instability can cause loss of confidence in the systems themselves. In 
financial markets, the term ``correction'' has been adopted to describe 
how an unstable situation regains its balance. Such was the case in 
1929 when the introduction of technologies, such as the telephone and 
stock ticker, allowed for the creation of a truly national financial 
market. These technologies were used to assure convenient communication 
of information between individuals on a scale that had not been 
available previously. Unfortunately, the convenience of communicating 
information did not necessarily ensure the consistency or ethics of 
communication between investors. This resulted in a situation where 
technology facilitated the creation of a large-scale system, but a 
relatively small amount of people capitalized on the manipulation or 
control of information. The financial system rapidly went out of 
balance and this necessitated a large-scale correction.
    Since 1929, our nation has worked to implement controls that will 
keep our financial markets balanced and efficient, and as a society we 
have assigned clear responsibility for enforcing rules to assure a 
balanced and sustainable financial system. Unfortunately, the maturity 
found in financial market controls is not present in the area of 
control systems security.
    Just as in the events leading up to the financial crisis of 1929, 
there were similar indications of an upcoming service disruption in the 
years preceding the Internet worm incidents of 2003. The wide-scale 
implementation of technology resulted in the largest computer network 
that had ever been created. The ubiquity of Internet connectivity 
motivated many governments, private entities, and individuals to 
connect their computers to the network to take advantage of the new 
communication opportunities. This full-speed-ahead approach to the 
Internet was undertaken without any coordinated oversight or planning, 
and it was assumed that its use involved relatively few risks.
    Previous to 2003 there was relatively little attention given to 
securing components connected to the Internet. Most of the efforts of 
security professionals were directed at securing the core network 
services that the Internet relied on and not the distributed components 
that were connected to the network, which resulted in systems that were 
significantly out-of-balance that impacted computer users that were 
connected to the Internet. The first event was the SQL Slammer Worm 
that compromised hundreds of thousands of computers and generated 
enough network traffic to interrupt Internet connectivity for most of 
the world?s computer users. The second event of 2003 was the Blaster 
Worm that infected millions of computer systems worldwide and, again, 
interrupted Internet service on a global scale.
    The impacts of the 2003 events provide examples of how technology 
has already become a core part of the services that we rely on. When 
the Slammer worm was coursing through the Internet, Bank of America?s 
debit and credit card operations were impacted, denying customers the 
opportunity to make any transactions using their bank cards. These 
incidents signaled a change in the way that individuals can and do 
exploit system instability. While the problems with market fluctuations 
in 1929 resulted from thousands of people interacting with the system, 
the Slammer and Blaster worms were created by a small number of 
individuals.
    The correction that resulted in the case of the 2003 incidents was 
a significant shift in the resources dedicated to computer and Internet 
security. Instead of focusing on securing just the core services, the 
owners of the connected components began dedicating resources to secure 
their own systems. Within months, technology vendors began implementing 
processes and technologies to enable systems to be more resilient to 
internet-based attacks. I look back at my participation in the design 
and implementation of improved technology updating services while at 
Microsoft and still remember the enormous challenge that we faced in 
the days following Slammer and Blaster. The problem of creating a 
system that provides universal access to updates while still allowing 
system owners the flexibility they need to operate predictably creates 
a paradox that is yet to be resolved today. Looking across the 
technology industry, each vendor and system owner has taken a different 
approach to managing the risks associated with inter-connected systems.
    As a result of the current fragmented approach to assuring system 
resiliency, information security professionals have had to continue to 
shift resources as the threats and vulnerabilities constantly change 
from day to day, with very little time to look at the problem and 
limited resources to coordinate a long-term strategy. For those who are 
seeking a strategic view, the trend that can be identified in the cyber 
security realm is that the threats consistently migrate on a ``path of 
least resistance'', meaning that where one service or component may be 
protected, the attackers will move to another service or component, 
continuously searching out the easiest entry points to achieve their 
objectives. Examples of this shift are evident in the way that core 
Internet services were protected after initial denial-of-service 
attacks in the mid 1990s, the increased focus on operating system 
security after the operating systems of Internet-connected computers 
were attacked in the late 1990s and early 2000s, and the increase in 
application-specific attacks that have been seen in the last two years.
    In light of the 2003 Internet worm incidents and subsequent cyber 
security incidents, it is important to review the current state of 
security of the components that make up our critical infrastructure 
systems.
    The majority of our nation's critical infrastructure is privately 
owned and operated, with the asset owners being subject to market 
forces as they make decisions relative to the security of their 
systems. In the current situation where control system security issue 
awareness is sporadic and significant incidents have not been publicly 
reported, these privately-owned infrastructure systems have only 
rudimentary mitigations for security risks. Despite the lack of 
appropriate security controls, there are numerous examples where asset 
owners have decided to increase their dependency on technology to 
reduce the costs associated with having to maintain a large operating 
staff. This reduction in the number of qualified operators and increase 
in the number of connected systems has resulted in a significant 
increase in the vulnerabilities that we see affecting control systems 
today.
    INL has worked through government programs, industry associations 
and directly with vendors and asset owners to increase security 
awareness. While significant progress has been made in this area, it is 
still in the early stages of getting vendors and asset owners across 
infrastructures working together. Specifically, some vendors are still 
producing the components that make up infrastructure systems without 
appropriate security controls or an over-arching security architecture. 
Among the early and limited successes are a group of control systems 
technology vendors that are cooperating through government-sponsored 
partnerships to improve the security of those systems. Those efforts 
are still mostly confined to post-development security reviews. Also, 
in the areas of system updates, prescriptive implementation guidance 
and security support processes--control system security lags 
significantly behind other technology sectors.
    Exacerbating the immaturity of security in control systems, most of 
the deployed systems that compose our infrastructure today were 
designed and deployed prior to the wide-spread availability of 
networking technologies and the advent of the Internet. However, as was 
mentioned previously, the lack of security has not stopped asset owners 
from connecting those systems to the Internet to take advantage of 
technological efficiencies in the face of increasing competitive and 
resource pressures.
    Today, we find ourselves at a crossroads, where millions of 
infrastructure components are now connected to networks, allowing 
hackers access to systems that were never designed to be exposed to 
network attacks.
    While recent cyber security incidents, such as theft of personal 
information, denial of service attacks, and large-scale system 
compromise have impacted the Internet and connected computing systems, 
it needs to be emphasized that there has not yet been a wide-spread 
focus by hackers on the control systems that underlie our nation's 
infrastructure. Currently, vendors, asset owners, incident responders 
and information security experts do not fully appreciate the potential 
threat that exists to our infrastructure due to the risks created by 
vulnerabilities in control systems technologies. The pervasive use of 
technology, drive to ubiquitous connectivity and reduction in human 
oversight in control systems has introduced critical vulnerabilities in 
our infrastructure. The electricity that we depend on, the water that 
we drink, the petroleum that we use to get from place to place and 
financial systems we use for trade are all at some risk of being 
targeted and compromised.
    The NSTB program has funded 12 separate control systems security 
reviews, during which INL experts have found that all of the evaluated 
systems suffer from high-impact security vulnerabilities that could be 
exploitable by a low-skill-level attacker, using techniques that do not 
require physical access to systems. In reviewing the design and 
implementation of these control systems, the INL team discovered that 
in currently-deployed systems, enhanced security controls cannot easily 
be implemented while still assuring basic system functionality.
    With computer attackers constantly looking for new targets, they 
will follow the path of least resistance, which could lead them to the 
control systems that underlie our infrastructure. Information security 
experts, such as Alan Paller of the SANS (SysAdmin, Audit, Network, 
Security) Institute agree that without implementing risk mitigations, 
control systems will continue to be vulnerable. Based on historical 
examples of cyber security incidents in other technology domains, the 
corrections will most likely begin with small-scale incidents focused 
on economic gain, followed by the release of publicly-available 
vulnerability discovery tools and then transition to large-scale 
incidents designed to reduce confidence in the infrastructure systems 
themselves.
    As was reported by a government analyst in 2006 at a discussion in 
Williamsburg, Virginia, criminal extortion schemes have already 
occurred, where attackers have exploited control system vulnerabilities 
for economic gain. In December 2006 an automated control system 
vulnerability scanner was released allowing individuals with relatively 
little experience in control systems to quickly identify 
vulnerabilities. Following past correction trends, we may be on the 
path towards wide-spread vulnerability and exploitation.
    Another cause for concern is the increasing capability of hackers. 
In a recent paper published by IBM, experts agreed that attackers are 
forming a hacking industry, an underground economy that is quickly 
becoming a mature industry taking advantage of economies of scale with 
efficient distribution and communication channels. Raimund Genes, the 
Chief Technical Officer of Trend Micro, has stated that this 
underground digital economy generated more revenue than the $26 billion 
that legitimate security vendors generated in 2005.
    Today's ``just in time'' markets are more susceptible to control 
systems security issues, whether it is the electrical utility industry, 
petroleum production and refining, transportation services, or other 
essential services. In the limited control system reviews and testing 
that INL has conducted we have modeled scenarios where simplistic 
attacks originating from the Internet could:
        <bullet> Degrade electric grid capacity
        <bullet> Impact petroleum refinery processes
        <bullet> Interrupt transportation networks
        <bullet> Compromise potable water systems
    This list is composed of a brief sampling of potential outcomes. It 
should also be noted that the inter-connected nature of our 
infrastructure increases the potential for a high-impact correction. 
Based on the Department of Energy's research of the post-Katrina 
impacts on infrastructure, the second--and third-order impacts were in 
sectors not directly related to the infrastructure components destroyed 
by the hurricane.
    Comparing the capabilities of the asset owners and infrastructure 
technology vendors to the capabilities of the underground attacker 
community shows the stark contrast that exists between the attackers 
and the defenders. Based upon the wide-spread use of networked 
technologies observed during INL assessments, it should be noted that 
the complex systems that make up our nation's infrastructure are out of 
balance--similar to how systems were out of balance preceding the 
events of 2003.
    The course of action that is necessary in light of the current 
situation must be the continued decisive, coordinated, and committed 
effort by government, technology vendors, and asset owners. These 
efforts must start with effective awareness campaigns to educate all 
sectors about the risks that they currently face, followed with clear 
guidance on minimum standards for technology components of our nation?s 
infrastructure. This guidance must contemplate all aspects of the 
technology lifecycle, including improved development standards, 
implementation guidelines, operations procedures, and incident 
response. Good progress has been made by progressive asset owners, 
industry-initiated infrastructure protection leadership and by vendors 
willing to anticipate larger market-driven requirements for more 
security. The process of change will best be supported by renewed vigor 
in finding ways to get tools, technology and knowledge to a larger 
audience of asset owners and technology providers.
    INL's recommendation is to continue to prioritize and expediently 
address the issues associated with the nation's control systems 
security. The use of technology in our nation's infrastructure has 
improved the efficiency of infrastructure operations without 
corresponding improvements in the ability to secure these newly 
connected systems. For those of us working in this area the path is 
clear. We must maximize cooperation among asset owners and technology 
vendors to understand and improve control system security across the 
entire lifecycle of this necessary and critical technology. While we 
can't reduce all risk, we must work collaboratively to reduce the 
impact of these occurrences.

    Mr. Langevin. Thank you, Mr. Turner.
    Mr. Silva?

    STATEMENT OF KEN SILVA, CHIEF SECURITY OFFICER, VERISIGN

    Mr. Silva. Thank you, Mr. Chairman, Ranking Member McCaul, 
Congressman Lungren. I thank you for the opportunity to testify 
today.
    First, I want to commend and thank you for holding this 
hearing. All too often, cybersecurity is only the focus of 
attention after a few high-profile incidents, but it is the 
daily efforts by the government and private sector that ensure 
that we are prepared so that these attacks don't cause 
significant economic disruption.
    Make no mistake about it, cyber attacks occur every day 
with increasing frequency, intensity and sophistication. For 
the most part, Internet users never know these incidents 
because the infrastructure is continually strengthened and 
fortified to manage them. While the Internet's infrastructure 
may be invisible to users, it's importance cannot be 
overstated.
    Internet usage has grown dramatically. The dot-com bust 
gave the illusion that Internet growth had slowed down, but in 
fact it has grown at remarkable rates. At the height of the 
dot-com boom in 2000, for example, roughly 250 million used the 
Internet. Today, according to Internet World statistics, more 
than 1 billion users worldwide rely on the Internet.
    The technology of the Internet has transformed personal 
communications, banking and finance, government processes and 
manufacturing. Twenty-five percent of America's economic value 
moves over network connections each day. If the Internet were 
to go down for just a few hours, we would lose hundreds of 
millions of dollars of economic activity. For those reasons, it 
is critical that we make protecting our Internet infrastructure 
a priority.
    As the operator of the dot-com and dot-net domain 
registries, as well as the steward for two of the 13 route 
servers that serve as the nerve center for the Internet 
infrastructure, VeriSign has a unique position to observe cyber 
threats. The scale and scope of cyber attacks has grown 
dramatically over the last decade. For example, bandwidth 
demands to deal with cyber attacks have increased 150 times 
since 2000.
    A look at two of the largest attacks reflects how attacks 
have increased. In October of 2002, the Internet community got 
a wake-up call when 13 DNS route servers, which serve as the 
heart of the Internet addressing system, came under heavy 
denial-of-service attack. While the October 2002 attack slowed 
down the Internet, it did not cripple it.
    Infrastructure providers did take steps to protect the 
networks to cope with this new threat, in part spurred by 
concern that terrorists might target the Internet. Significant 
bandwidth was added to manage future attacks and to 
decentralize the infrastructure so that a single incident could 
not knock out the entire route server infrastructure.
    Attacks on the infrastructure did not let up, however, 
although the newly fortified system was far better prepared to 
handle them. An attack of that scale today is viewed as pretty 
much ordinary and commonplace. Hackers, however, have become a 
little bit more sophisticated. A year ago, for example, a 
hacker systematically disabled over 1,500 Web sites using 
approximately 32,000 hijacked PCs in a span of 6 weeks.
    In an unfortunate twist, the very devices and increased 
bandwidth that make the Internet more robust and user friendly, 
are being co-opted to compromise the Internet. Now that 
computers are always on, they are easily accessible to hackers 
and other abusers to hijack. The increased bandwidth and 
computing power available literally gives hackers more 
ammunition to utilize against the infrastructure.
    VeriSign projects that the volume of Internet attacks will 
increase by 50 percent in both 2007 and 2008. We now that the 
U.S. government takes Internet attacks very seriously. The 
Department of Homeland Security conducts Cyber Storm, which is 
the most ambitious cyber war game of its kind that tests how 
over 100 government agencies, organizations and private 
companies respond to threats on the Internet.
    The private sector must also be ready. VeriSign recently 
announced a global initiative called Project Titan to expand 
and diversify its Internet infrastructure by 10 times by the 
year 2010. Under Project Titan, VeriSign expects to increase 
its capacity 10 times, from over 400 billion DNS queries a day 
in capacity today, to more than 4 trillion per day; 
substantially expand its infrastructure both domestically and 
internationally--we are currently in the process of globally 
deploying over 70 sites worldwide; and to improve the 
monitoring infrastructure to provide a real-time, in-depth view 
of the anomalous network activity, either malicious or mishap 
activity.
    Given the increased usage and mounting threats, the 
Internet infrastructure must be continually fortified. Simply 
put, if we wait for usage to reach certain levels or attacks to 
take place to act, we are already too late. While the dot-com 
and dot-net systems currently get more than 30 billion queries 
a day, VeriSign believes it needs to continue to build a 
network infrastructure that can support 10 to 100 times that 
level of volume for the next few years.
    What is most concerning now is a scenario where terrorist 
attacks on a physical structure are combined with a cyber 
attack. Today is the 12th anniversary of the Oklahoma City 
bombing. It took 168 American lives. If such an attack today 
were combined with a cyber incident, which could disrupt the 
communication networks of those first responders, the damage 
could be much more severe.
    Equally concerning are the number of more subtle 
penetration attempts. We are literally constantly probed for 
vulnerabilities, and if we left our guard down for even a few 
moments, the slightest weakness could be exploited and damage 
far greater than a denial-of-service attack could occur.
    I thank you for this opportunity to testify here today.
    [The statement of Mr. Silva follows:]

                    Prepared Statement of Ken Silva

    Good morning, Mr. Chairman and distinguished Members of the 
Committee. My name is Ken Silva and I serve as Chief Security Officer 
of VeriSign.
    VeriSign operates intelligent infrastructure services that enable 
and protect billions of interactions every day across the world's voice 
and data networks. The company is headquartered in Mountain View, 
California and it has additional corporate facilities in Virginia, 
Kansas, Washington state and Massachusetts.
    Thank you for the opportunity to testify today. I have a prepared 
statement, which I would request be inserted in the record.
    First, I want to commend and thank you for holding this hearing. 
All too often, cyber security is only the focus of attention after 
high-profile incidents. But it's the daily efforts by the government 
and private sector that ensure that we are prepared so these attacks 
don't cause significant economic disruption.
    And make no mistake about it, cyber attacks occur every day, with 
increasing frequency, intensity and sophistication. For the most part, 
Internet users never even know of these incidents because the 
infrastructure is continually strengthened and fortified to manage 
them.
    While the Internet infrastructure may be invisible to users, its 
importance cannot be overstated. Internet usage has grown dramatically. 
The dot-com bust gave the illusion that Internet growth had slowed 
down, but in fact it has grown at remarkable rates. At the height of 
the dot-com boom in 2000, for example, roughly 250 million people used 
the Internet. Today, according to Internet World Stats, more than 1 
billion users worldwide rely on the Internet.
    The technology of the Internet has transformed personal 
communications, banking and finance, government process and 
manufacturing. Twenty-five percent of America's economic value moves 
over network connections each day. If the Internet were to go down for 
a just few hours, we would lose hundreds of millions of dollars of 
economic activity.
    For those reasons, it is critical that we make protecting our 
Internet infrastructure a priority.
    As the operator of the .com and .net domain registries as well as 
the steward for two of the 13 root servers that serve as the nerve 
center for the Internet infrastructure, VeriSign has a unique position 
to observe cyber threats.
    The scale and scope of cyber attacks has grown dramatically over 
the last decade. For example, bandwidth demands to deal with cyber 
attacks have increased 150 times since 2000. A look at the two largest 
attacks reflects how attacks have increased.
    In October 2002, the Internet community got a wake-up call when the 
13 DNS root servers, which serve as the heart of the Internet 
addressing system, came under heavy denial of service (DoS) attack.
    While the October 2002 attack slowed down the Internet, it didn't 
cripple it.
    Infrastructure providers took steps to protect the networks to cope 
with this new threat, in part spurred by concern that terrorists might 
target the Internet. Significant bandwidth was added to manage future 
attacks and to decentralize the infrastructure so that a single 
incident could not knock out a root server. Attacks on the 
infrastructure did not let up, although the newly fortified system was 
far better prepared to handle them.
    An attack of that scale today is viewed as ordinary and 
commonplace.
    Hackers, however, have become much more sophisticated. A year ago, 
for example, a hacker systematically disabled over 1,500 websites using 
approximately 32,000 hijacked PCs. In these attacks, the hacker didn't 
directly attack the domain-name servers. Instead, they sent their 
traffic to a legitimate server with a DNS query and a forged source 
address. This attack was also amplified by 70x.
    In an unfortunate twist, the very devices and increased bandwidth 
that make the Internet more robust and user friendly are being co-opted 
to compromise the Internet. Now that computers are always-on, they are 
easily accessible to hackers and other abusers to hijack. The increased 
bandwidth and computing power available literally gives hackers more 
ammunition to utilize against the infrastructure. VeriSign projects 
that the volume of Internet attacks will increase by 50 percent in both 
2007 and 2008. In addition, massive infrastructures such telephony, 
television, and mobile communications will migrate to the Internet.
    We know that the U.S. Government takes Internet attacks very 
seriously. The Department of Homeland Security conducts ``Cyber 
Storm,'' the most ambitious cyber wargame of its kind that tests how 
over one hundred government agencies, organizations and private 
companies respond to threats to the Internet.
    The private sector must also be ready. VeriSign recently announced 
a global initiative called Project Titan to expand and diversify its 
Internet infrastructure by ten times by the year 2010.
    Under Project Titan, VeriSign expects to:
        <bullet> Increase its capacity 10 times from 400 billion DNS 
        queries a day to 4 trillion a day. By doing so, VeriSign will 
        ensure that the infrastructure is prepared not only for 
        attacks, but the dramatic increase in Internet usage driven by 
        Internet-enabled mobile devices and social networking 
        applications.
        <bullet> Substantially expand its infrastructure both 
        domestically and internationally. VeriSign is in process of 
        globally deploying over 70 DNS constellation sites. These sites 
        will distribute Internet traffic and enable us to isolate 
        attacks as they happen.
        <bullet> Improve the monitoring infrastructure to provide a 
        real-time, in-depth view of anomalous network activity, either 
        malicious or mishap.
    Given the increased usage and mounting threats, the Internet 
infrastructure must be continually fortified. Simply put, if we wait 
for usage to reach certain levels or attacks to take place to act, we 
are already too late. While the .com and .net systems currently get 
more than 30 billion queries a day, VeriSign believes it needs to 
continue to build a network infrastructure that can support 10 to 100 
times that level of volume in the next few years.
    What is most concerning now is a scenario where terrorist attacks 
on a physical structure are combined with a cyber attack. Today is the 
12th anniversary of the Oklahoma City bombing that took 168 American 
lives. If such an attack today was combined with a cyber incident that 
took down or disrupted our communications networks the damage could be 
much more severe.
    Equally concerning, are the number of more subtle penetration 
attempts. We are literally constantly probed for vulnerabilities and if 
we left our guard down for even a few moments, the slightest weakness 
could be exploited and damage far greater than that of a denial of 
service attack could occur.
    We have all witnessed, and learned, a lot over the last decade. We 
have had tragic reminders that our critical infrastructure and national 
symbols are targets. We have seen how not adequately preparing for 
events can have disastrous consequences.
    We know that Internet is often taken for granted. But the operators 
of that infrastructure must never take it for granted. We must remain 
vigilant in understanding what is driving the growth of the Internet 
and the malicious efforts of some who wish to disrupt it.
    Thank you for the opportunity to testify here today.

    Mr. Langevin. Gentleman, I thank you for your testimony.
    I will now recognize myself for questions, beginning with 
Mr. Turner.
    I wanted to ask why haven't we seen a widescale event take 
place if these systems are so easy to access? Without widescale 
events, what is the motivation for users to secure them? And 
how do we educate the owners and operators of these systems? 
And finally, will the systems ever be 100 percent secure?
    Mr. Turner. Thank you for the opportunity to respond.
    For your first question, why haven't we seen a major 
incident to date. There are a couple of factors that influence 
that, the first one being that for the vast life-span of these 
systems, they have not been connected to any network of any 
sort.
    But as I mentioned in my testimony, the private 
infrastructure owners who manage these systems, they are 
private entities and they are subject to market forces and 
resource constraints. So when they have the opportunity to 
reduce staff to improve efficiency, they usually defer to 
connecting them to some sort of network to control them 
remotely.
    Based upon our research that we have seen and the 
assessments that we have conducted at INL, we see a significant 
increase in the number of connected systems in the last year. 
So we believe that we have not see a major incident to date 
because of the lack of connectivity, but that ecosystem is 
changing.
    Does that address your first question?
    Mr. Langevin. Yes, sure.
    Mr. Turner. The second one, how to educate. There are 
really three parts to the awareness equation that need to be 
taken a look at here. This problem cannot be solved by just 
focusing on the infrastructure owners or just focusing on the 
vendors. It has to be a holistic solution. So the vendors first 
need to be made aware of these types of vulnerabilities very 
early in the life-cycle of these systems, so that these 
vulnerabilities are not created when the product is shipped to 
the customer.
    Also, the customer needs to be informed about how to make 
sure that they deploy the systems in the correct way, and how 
to recognize an insecure architecture. And then the third 
aspect is we need to make sure that our law enforcement 
officials and incident responders understand what an incident 
looks like. We don't really have a solid understanding of what 
an incident in this area looks like because nothing big has 
happened yet.
    And then the last one, how can we be 100 percent certain, 
or do we need to get to 100 percent security.
    Mr. Langevin. Will we ever get to 100 percent?
    Mr. Turner. I think, as was mentioned before in prior 
testimony, security is a snapshot of a moment in time. The 
threat always changes. The vulnerabilities are introduced. So I 
don't believe you can ever have a dynamic, effective, 
productive system and be 100 percent secure. It would violate 
the reason why you built it.
    What you have to have in place are mitigations that help 
you get the business accomplished, while still monitoring the 
integrity of that system. So you have to make sure that you 
take a balanced response in making sure the system does its 
job, but that it can be monitored and maintained, and its 
integrity can be maintained over time.
    Mr. Langevin. Gentlemen, why do you think our nation isn't 
doing enough in the area of control system security? Why does 
the government need to get involved? Where are the leadership 
areas that are appropriate for government? And how can federal 
regulation be used to improve the CIP posture? What areas are 
not appropriate for government, as well as what areas are 
appropriate?
    Mr. Turner. Why are we not doing enough? Based upon my 
professional experience, I have seen what it takes to conduct a 
global information security program within a company like 
Microsoft; what it takes to make sure that the developers of 
the technology understand things; that the implementers 
understand things; and the end-customers understand it, too.
    When I compare the insights that I have into the budget 
that a company like Microsoft spends on a global information 
security improvement program, and I compare that to the insight 
that I have into what we are doing as a country to protect our 
critical infrastructure, the budget being spent by Microsoft is 
a magnitude order greater than what we are spending as a 
country in this area. So that is the first comparison that I 
would make.
    As far as leadership, I think that government leadership 
should rely in areas such as setting a good example of how to 
secure government systems so that the critical infrastructure 
providers can look to the government as a leader in the space, 
and then also serve as a coordinator among different experts so 
that the expertise can be shared across the ecosystem.
    The last point of your question as far as regulation, I 
think government should get involved to assure a level playing 
field. There should be minimum standards that are established 
so that it is clear for all of the technology vendors and the 
infrastructure owners what constitutes the minimum here.
    I think a good example of that is some of the work that INL 
has done in conjunction with the DHS program for a procurement 
standard, meaning that you can teach the infrastructure owner 
what the minimum standard should be for those systems before 
you buy them and before you install them. We need to do that 
across the ecosystem, though.
    Mr. Langevin. Mr. Silva?
    Mr. Silva. I don't disagree with anything Mr. Turner said, 
except that in listening to the earlier panel and listening to 
some of the description of what they had to go through and how 
they had to do some risk analysis and make some decisions on 
whether to take these machines off or not, is not uncommon from 
what almost any company in the world would go through if they 
experienced a very similar type of incident.
    Patch management and the ability to keep systems updated 
and secure, for instance you could put a computer on the 
network today and you have cleaned all of the vulnerabilities 
that you know about today. Tomorrow, there may be 200 
vulnerabilities attached to that machine that you didn't know 
about when you put the machine on, or it could be a year from 
now, et cetera.
    The ability to be able to keep those machines updated and 
patched is a challenge that this industry has been facing for a 
decade, and still hasn't completely solved the problem. 
Different companies deal with it in different ways. Trying to 
keep the systems secured to a common level and establishing a 
baseline for that, frankly that baseline would be probably 
obsolete by the time the ink dried on it in many cases.
    A lot of our government agencies, as well as our private 
companies are facing a lot of compliance issues, where they are 
dedicating a lot of time to trying to meet somebody's 
interpretation of what a minimum standard is, and not adapting 
to what the new challenges are. So I think that there is a fine 
line to walk here between holding people accountable and 
regulating it.
    Mr. Langevin. Thank you.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. McCaul, the gentleman from Texas, for 5 
minutes.
    Mr. McCaul. I thank the chair.
    This is kind of a big picture question, but today 
vulnerabilities are discovered, found. Who do you believe is 
responsible to lead that effort to mitigate the risk? Who takes 
the lead?
    Mr. Silva. Well, today, the government agency that we look 
to for that is the US-CERT. They are considered the authority 
of database for vulnerabilities and exploitation management. So 
we typically use them as the authoritative source for the 
contents of what those vulnerabilities are. They will typically 
list some mitigation strategies associated with that.
    Mr. McCaul. Do you believe that they are providing that 
leadership today at an adequate level? Is there more that they 
could be doing?
    Mr. Silva. Well, I think that there is always more anybody 
could be doing, but yes I do think that they are actually doing 
a pretty good job at that. As a matter of fact, I think that 
when you look at the NCSD, for example, okay? I think that they 
are a model for a public-private partnership in terms of 
relationship. I was fascinated at the amount of information 
that they started providing us once we got into that pool of 
people, if you will, or industries that they support.
    NCSD provides a lot of information to us daily. Could it 
always be better? Nothing is ever perfect. I believe that every 
day they improve it. So I think they know it could be better 
and they constantly strive to do that.
    Mr. McCaul. What needs to be done to engage the private 
sector more in this area? We heard from Mr. Turner that the 
private-sector security is not always where it should be. What 
needs to be done to really bring in the private sector more to 
make them more of a leader in this area?
    Mr. Silva. I am sure Mr. Turner will have something to say 
about this, but I will just say a couple of words on that. I 
think as long as it is viewed as a partnership, and you are not 
asking the private sector to just come in and sort of donate a 
bunch of effort and a bunch of time, and all of a sudden deep 
dark secrets wind up in the press. I think some of the issues 
have been addressed with respect to what information could be 
retrieved from FOIA, with information sharing. I think that was 
a big step in the right direction. We have seen a lot of 
positive movement because of that.
    So I think the biggest thing is to approach it as a 
partnership. It is a give and take. The good news is that I 
think that NCSD has taken their relationship with the private 
sector, they bring that information together; they sort of 
sanitize it, anonymize it, if you will, and then they can 
produce a cohesive report. Literally every day, they produce a 
daily summary of what the situation is.
    Mr. McCaul. So the FOIA exception that was passed that 
would protect your reporting a vulnerability, which obviously a 
private company is not going to want to report that for obvious 
reasons--shareholders and stock price. That has helped in the 
information sharing process with the government, in your view.
    Mr. Silva. It absolutely has. In fact, if you break this 
down a little bit, Mr. Dixon cited earlier that there were a 
number of vulnerabilities and incidents that had been reported, 
and it was tens of thousands. It is a big number. Bear in mind 
that that number is only from the people who have willingly 
reported it, and I dare say that the number is significantly 
higher that goes unreported.
    Mr. McCaul. Mr. Turner, you said something that caught my 
attention. You said that experts have found that all the 
systems suffer from high-impact security vulnerabilities that 
could be exploited by a low skill-level attacker. We always 
hear the story about the teenager learning how to hack into a 
computer network system and crash it, and then we think about 
that kind of capacity, that sort of skill on the part of a 
criminal or in the worst-case scenario, a terrorist.
    Yet, that is what you are reporting the experts have found. 
How do we strengthen that system so low skill-level, which 
would include obviously not a whole lot of knowledge to do it. 
How do we greater protect the system?
    Mr. Turner. As I mentioned previously, the best way to 
approach this is holistically, meaning that you have to 
motivate the vendors to start including better security 
controls in the base technologies themselves. And then you also 
have to make sure that the infrastructure owners are properly 
trained to architect those systems properly so they don't 
defeat the security controls that the vendor develops.
    And so in the case that further on in the testimony you 
will notice, some of the existing systems cannot necessarily be 
retrofitted with security technologies or enhanced security 
controls, while still maintaining system reliability. So that 
is going to be the barrier to entry for improve security for 
these private infrastructure owners. They are going to be the 
ones who have to make that decision of when do we rip and 
replace; what is the pain threshold that we have to go through.
    I think the role of government there is establishing this 
level playing field so that people understand these are the 
minimum standards, and then you defeat some of the market 
forces and the resource constraints that these private 
infrastructure owners are apparently under. So it is a 
combination of government motivating the private infrastructure 
owners to make the investment; informing the technology vendors 
about how to go about improving the technology; and then 
informing the infrastructure owners how to deploy it properly. 
I think that is the three-phase approach.
    Mr. McCaul. Do you agree with that, Mr. Silva, from the 
private-sector standpoint?
    Mr. Silva. Yes, I do. I think that certainly incentives, 
whether positive or negative, definitely have an impact on that 
sort of thing. In terms of the vendors actually incorporating 
security into their software or their products, there is a huge 
challenge in that it still has to be usable, okay?
    So BlackBerrys, for example, are a very useful tool and a 
lot of people use them, but not a lot of people want to have to 
enter a password every time that they want to check their e-
mail on that. So what happens is that they frequently turn it 
off, making it far less secure if you leave that on an 
airplane, and someone picks it up, and they basically have your 
whole mailbox.
    So there is a tradeoff between usability and security. 
Unfortunately, oftentimes, things that are more convenient are 
often less secure because of that.
    Mr. McCaul. If I can just throw one last one, in terms of 
when we are talking about vulnerabilities--and if you can't 
give me a specific percentage breakdown, I understand--but how 
much are we vulnerable because of technology weaknesses in the 
system, versus just what you talked about, and that is, for 
lack of a better term, operator error?
    Mr. Silva. Oftentimes, the biggest vulnerability in any 
network sits between the keyboard and the back of the chair. So 
what will frequently happen is that users will make the system 
more accessible for themselves, their children, their 
coworkers, you know, what have you. And by and large, and the 
thing we have not really talked about here today is the insider 
threat, not just outsider threats, but insider threats.
    In fact, most of the most serious penetrations in networks 
have actually occurred from inside the network, where people 
actually steal the money or steal intellectual property from 
inside the company. But oftentimes, people will do things for 
their own convenience which inherently make the system less 
secure.
    Mr. Turner. And we would back that up with the findings 
that we have had in our assessments. You can make the best, 
most secure technology, but if it is inconvenient in the end-
users perspective, it often gets disabled. So it is an 
awareness issue all the way through to the end-user.
    Mr. McCaul. Thank you. I see my time has expired.
    Mr. Langevin. I thank the gentleman.
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. I thank the gentleman.
    I thank the gentleman from Texas for leaving me some time. 
I appreciate this.
    [Laughter.]
    Mr. McCaul. I was trying to filibuster.
    [Laughter.]
    Mr. Lungren. Mr. Chairman, I would just like to suggest if 
we are going to conduct hearings on these high-technology 
issues here, we might ask if they could at least get the two 
clocks to be coordinated.
    [Laughter.]
    According to one, it is 8 minutes to 10:00, and the other 
one says it is 7 minutes after 7:00.
    Mr. Langevin. I would check my BlackBerry, but I don't know 
if that is working right now.
    [Laughter.]
    Mr. Lungren. Well, for security reasons, no one knows what 
time it is.
    Here is the question. In the private sector, how do we make 
them do more than they are doing now, because you are talking 
about these control systems that are controlling more and more. 
How do we get them to understand better that security of this 
nature is acceptable to their bottom line? In other words, if I 
sell a product, my bottom line is expressed in some ways by the 
more attractive I make my product. So the user sees air 
conditioning in the car; sees a new transmission, those sorts 
of things.
    Here you are selling products to individuals who want to 
make it user-friendly, want to make sure it works, but embedded 
in that is the threat against security. Therefore, embedded in 
that has to be the security against that invasion. How do we 
make it real for a CEO to listen to his I.T. security guy, the 
man or woman who comes in and says, there is this 
vulnerability, but--and I am quoting you, Mr. Silva--there are 
all kinds of vulnerabilities out there. There are attacks going 
on every day. Everybody sort of has them.
    How do I improve my product--and of course, we are talking 
about critical infrastructure--how do I improve it so that I 
can show my bottom line to my shareholders, to the taxpayers, 
to whoever, when perhaps the possibility of a catastrophic 
event is very small, but the consequence is huge. How do we do 
that when it is hidden the way it is, as you suggested?
    Mr. Turner. The first approach that you have to look at 
this is you are exactly right. In a true risk management 
equation, without threat, without some sort of over-act, or 
some sort of large incident, it is very tough to drive purely 
business-focused people, because they can't manage an unknown 
threat. You can talk about the worst impact in the world, but 
until there is some sort of incident, most times the people who 
are in pure risk management situations will not take any 
action.
    So with that sort of backdrop, you have to move into a 
situation where the people who manage the business of providing 
critical infrastructure are educated for the vulnerabilities 
that exist in their systems. In many cases, they don't 
understand. Now, that education is where we have been spending 
a lot of effort, reaching out to industry at INL to help 
educate folks, but still there is a long ways to go.
    Mr. Lungren. So the government could do a lot in terms of 
education. I think that is an obligation.
    The next question is, what do we do in terms of regulation? 
If we do regulation, what is the nature of that regulation? 
Because if we do try and articulate what the range of fixes 
are, as you suggest, before the ink is dry, that may not be the 
right fix.
    So what is the--if you have any suggestions for us--the 
parameters of our legislative action that would create the 
incentives for this kind of protection you are talking about, 
on the one hand, and not diminish the ingenuity of the private 
sector, where they might find a fix that we haven't even 
thought about, but they are doing that job.
    I know that is a general question, but that is really the 
tough thing that we have here.
    Mr. Silva. It is a very fair question. Some of this was 
sort of addressed. Some examples of what you are talking about 
are things like the SAFETY Act, for example, where if you meet 
a minimum set of standards, you know your liability is limited, 
those sorts of things. There has to be some form of an 
incentive to get the average company to participate in an 
aggressive security activity.
    Some examples where we have seen some improvement have been 
around Sarbanes-Oxley, okay? So Section 404 of that sort of 
suggests some security measures which need to be taken, and the 
board holds them accountable. But when a CSO walks into the 
CEO's office and says, boss, I need $100 million to enhance the 
infrastructure because it might go down for 1 hour in the next 
3 years, okay? If I were a bank, I might accept that risk and 
say it is not worth $100 million to me. I can afford to be down 
3 hours in the next 3 years.
    At VeriSign, we don't have that luxury, because if we go 
down, every enterprise is down for 3 hours, and that is not a 
luxury we have. So I am fortunate as a CSO in that my CEO gets 
it, but I don't think that you can make business sense to most 
CEOs that you want to spend tens or hundreds of millions of 
dollars fortifying an infrastructure with no financial return 
on it. So that is the challenge.
    Now, what Congress can do in particular is if you want 
strengthened software and better products, then insist on it 
when you buy them.
    Mr. Lungren. So we will spend more money.
    Mr. Silva. You are already spending the money, right? You 
are already spending the money. You decide who you are going to 
spend it with based on the capabilities that they offer. This 
is not unprecedented. It has happened in the past.
    Mr. Turner. To back up his comments, I think what is 
important is that if you are looking to take action, the first 
thing you can do is help to dedicate folks towards specific 
aspects of the area, so there is no one-size-fits-all security 
mechanism. Help the private folks categorize and prioritize 
their assets that support critical infrastructure, and then 
help them, motivate them to whatever mechanism you deem most 
appropriate to move towards something that is more proactive 
from the security perspective.
    Mr. Langevin. The time has expired.
    I want to thank the witnesses for their very valuable 
testimony and the members for their questions.
    This is not the last hearing that we hold on cybersecurity, 
I can promise you that. I look forward to working with you as 
we go forward. The issue is too important to ignore.
    Again, we thank you for your testimony here today.
    The members of the subcommittee may have additional 
questions for the witnesses, and we will ask you to respond 
expeditiously to those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]


                              APPENDIX  A

                              ----------                              


                          Prepared Statements

    Prepared Statement of the Honoralble James Langevin, Chairman, 
   Subcommittee on Emerging Threats, Cybersecurity, and Science, and 
                               Technology

    <bullet> Ladies and gentlemen, welcome to the Subcommittee on 
Emerging Threats, Cybersecurity, Science and Technology hearing on the 
hacking of federal systems and privately-owned critical infrastructure.
    <bullet> I'd like to begin by thanking the witnesses who appear 
before us today, and I appreciate your testimony.
    <bullet> I'd like to focus my remarks this afternoon on our first 
panel, which will discuss the security of information technology on the 
federal level.
    <bullet> Let me be clear about the threat to our federal systems: I 
believe that the infiltration by foreign nationals of federal 
government networks is one of the most critical issues confronting our 
nation.
    <bullet> The acquisition of our government's information by 
outsiders undermines our strength as a nation. If our sensitive 
information is stolen and absorbed by our enemies, we are strategically 
harmed.
    <bullet> Over time, the theft of critical information from 
government servers could cost the United States our advantage over our 
adversaries. This is a most critical issue that we cannot afford to 
ignore any longer.
    <bullet> Today we're hearing from several agencies that have 
experienced significant cyber attacks against their systems.
    <bullet> These are not the only agencies experiencing these 
problems. They are simply the only attacks that have been made public.
    <bullet> In October 2006, hackers operating through Chinese 
Internet servers launched an attack on the computer system of the 
Bureau of Industry and Security (BIS) at the Department of Commerce.
    <bullet> The hackers penetrated the computers with a ``rootkit'' 
program, a form of software that allows attackers to mask their 
presence and then gain privileged access to the computer system.
    <bullet> In reviewing the Commerce testimony for today's hearing, I 
am troubled by several things.
    <bullet> Though Commerce learned on July 13 that its computers were 
first infected, this was not the date of initial infection. In fact, 
Commerce has no idea how long the attackers were inside their systems, 
nor do they know if the attackers are still within their systems. As 
far as I can tell from the responses, rogue tunnel audits, 
authentication changes, and complete machine rebuilds have not 
occurred.
    <bullet> We're also not sure how much information was lost. Though 
Commerce tells us that data was not ``lost,'' data can easily be 
``copied'' and sent outside through the Internet.
    <bullet> Unfortunately, Commerce isn't the only federal agency with 
a problem.
    <bullet> Prior to the Commerce hack, in June 2006, hackers accessed 
networks at several State Department locations, including its 
Washington headquarters, and inside the Bureau of East Asian and 
Pacific Affairs.
    <bullet> They did so by sending a socially-engineered email to an 
employee. The employee opened the Microsoft Word document attachment, 
which contained an exploit code.
    <bullet> I am concerned about the temporary fix that State put in 
place.
    <bullet> Security authorities that I have spoken with are highly 
dubious about the success of ``temporary wrappers,'' the kind which 
State had to put in place due to the absence of a Microsoft patch for 
several months.
    <bullet> Most targeted attacks involve root-kits, which cannot be 
detected or stopped by a ``temporary wrapper.'' I don't understand, 
therefore, why State wouldn't take its entire system offline for a full 
kernel inspection.
    <bullet> In reading State's testimony, I believe that State made 
the determination that accessibility to data is more important than 
confidentiality and integrity. If State really valued confidentiality 
and integrity, they would have taken the system off line and done a 
full wash.
    <bullet> Both agencies insist that these attacks are less serious 
because they involve ``unclassified servers.'' I disagree.
    <bullet> As you are no doubt aware, FISMA requires federal agencies 
to track down and identify every device and system on an agency's 
network, and to make sure that the network topology is fully described.
    <bullet> As we learned last week, both State and Commerce received 
F's in the latest round of FISMA scores. According to page 10 of the 
Fiscal year 2006 FISMA Report to Congress, the Inspector General at the 
Department of State reported that the agency did not complete at least 
50% of its system inventory. The IG at the Department of Commerce 
certifies that at least 96% of Commerce systems have been inventoried.
    <bullet> I will suggest to our panelists today that if they can't 
certify their network topologies to FISMA, then they can't know for 
certain whether these incidents don't involve the classified networks.
    <bullet> Furthermore, just because these attacks are occurring on 
the unclassified network does not mean this isn't sensitive 
information. Information that may be deemed ``classified'' in the 
future may first appear on an unclassified network.
    <bullet> But this isn't just about Commerce and State.
    <bullet> I am disappointed and troubled with the Department of 
Homeland Security's progress in securing cyberspace.
    <bullet> The Department is the agency responsible for securing the 
nation's critical infrastructure, and yet they received a ``D'' this 
year on its FISMA score. It is the first time since 2003 that the 
Department did not receive an ``F.''
    <bullet> Our issue today is with the NCSD, but I'll be honest with 
you: I don't know how the Department thinks it's going to lead this 
nation in securing cyberspace when it can't even secure its own 
networks.
    <bullet> Not only are these grades embarrassing, it's dangerous. 
Think about all of the critical information the Department is keeping 
on its networks. I can assure everyone here that the kinds of questions 
that have been asked to the State Department and the Commerce 
Department will be asked to DHS.
    <bullet> With regard to NCSD's response to these incidents, I have 
a few thoughts.
    <bullet> It is my understanding that NCSD does not adequately share 
commonalities of attack information with other agencies that may be at 
risk. For instance, an agency like Commerce or State that has been 
hacked by a ``zero-day exploit'' will provide this information to the 
NCSD. But the NCSD can't just sit on that information.
    <bullet> We need the NCSD to be the group that fuses information 
from across the federal government together and distributes a product 
for agencies to use.
    <bullet> Unfortunately, I understand that NCSD does not have 
protocols in place to share this kind information with other agencies 
in the federal government or perform that level of work.
    <bullet> This subcommittee will continue to monitor these issues to 
ensure that information sharing and technical response improves.
    <bullet> In closing, I think these incidents have opened up a lot 
of eyes in the halls of Congress.
    <bullet> We don't know the scope of our networks. We don't know 
who's inside our networks. We don't know what information has been 
stolen.
    <bullet> We need to get serious about this threat to our national 
security.

    Prepared Opening Statement of the Honorable Bennie G. Thompson, 
                Chairman, Committee on Homeland Security

    <bullet> I want to thank Chairman Langevin for holding this 
critical hearing.
    <bullet> I've been tracking this issue for some time now.
    <bullet> In October 2006, when the world first learned of the 
hacking incident at the Department of Commerce, I sent a letter to the 
Assistant Secretary for Cybersecurity, Greg Garcia, asking several 
specific questions about the role of the Department in responding to 
this incident.
    <bullet> Unfortunately, I never received a response back from the 
Department.
    <bullet> I understand that I'm not the only one being left in the 
dark when it comes to the Department's efforts in cybersecurity.
    <bullet> If I understand Chairman Langevin correctly, many federal 
agencies are waiting for the Department to provide them with timely 
intelligence and recommendations about hacking incidents at the federal 
level.
    <bullet> Many in the private sector are also telling me that the 
Department is failing to provide the guidance and partnership necessary 
to successfully secure cyberspace.
    <bullet> It is clear that our government, working together with the 
private sector and academia, must do more to ensure that cybersecurity 
is a priority in our nation(s homeland security strategy.
    <bullet> In 1996, the United States government undertook the first 
national effort to secure our networks.
    <bullet> Unfortunately, I don't believe that we are any further 
along today in our efforts to secure cyberspace.
    <bullet> Programs and initiatives that were developed over the past 
ten years have been dismantled and, in certain instances, are just now 
being re-created by the government.
    <bullet> We can see that this Administration views its priorities 
in cyberspace differently from the last Administration.
    <bullet> The most senior ranking official within the Administration 
exclusively responsible for cybersecurity has gone from being a Senior 
Advisor to the President to an Assistant Secretary position buried 
several layers down in the Department of Homeland Security bureaucracy.
    <bullet> I'm glad to read in Mr. Dixon's statement that 
``coordinating better cyber security practices across the Federal 
government'' is one of Secretary Chertoff's ``highest priorities.''
    <bullet> But this rings hollow to me when I think about how long it 
took him to appoint an Assistant Secretary for Cybersecurity.
    <bullet> I also wonder why the Secretary believes that this 
Department will be able to coordinate better cyber security practices 
across the Federal government, when his own Chief Information Officer 
just received up a ``D'' in the recent FISMA grades.
    <bullet> Finally, I'm wondering why the Secretary wouldn't send Mr. 
Garcia up on this first panel to testify. I can think of no better 
opportunity for him to work on coordinating better cyber security 
practices across the Federal government than sitting next to the State 
and Commerce Departments at this hearing.
    <bullet> I look forward to hearing the testimony and I appreciate 
the witnesses for being here today.


                              APPENDIX  B

                              ----------                              


                   Additional Questions and Responses

Questions from the Honorable James. R. Langevin, Chairman, Subcommittee 
    on Emerging Threats, Cybersecurity, and Science, and Technology

                       Responses from Jerry Dixon

    Question 1.: What kinds of products does the Department provide to 
other agencies when the Department hears about a ``zero day'' exploit? 
Does the Department send intelligence products to other agencies 
suggesting ways that they can remedy the vulnerability? Does the 
Department send patches that agencies can install on their own systems?
    Response: Zero-Day Exploits
    A zero-day exploit is one that takes advantage of a security 
vulnerability previously unknown to the general public. In many cases, 
the exploit code is written by the same person who discovered the 
vulnerability. By writing an exploit for the previously unknown 
vulnerability, the attacker creates a potent threat since the 
compressed timeframe between public discoveries of both the exploit and 
vulnerability makes it extremely difficult to defend against. In many 
cases, the critical nature of the exploit puts the vendor in the 
spotlight with the pressure to create a fix as soon as possible.
    Defending against zero-days is a difficult task for even the most 
vigilant administrator or experienced computer user. Establishing and 
following best practices is still the best defense in network security. 
These practices will help organizations decrease risks and determine 
incident response procedures should a need occur.

    US-CERT Vulnerability Disclosure Policy
    To support its operational mission, the United States Computer 
Emergency Readiness Team (US-CERT) focuses its programs and initiatives 
on enhancing situational awareness, increasing collaboration across 
Federal operational security teams, preventing or quickly containing 
cyber incidents, and providing for inter-agency coordination during a 
cyber event. US-CERT established a vulnerability remediation process 
and a national alert system in order to collect, mitigate, and 
disseminate vulnerability information to Federal, public, and private 
partners.
    Vulnerabilities reported to US-CERT are forwarded to the affected 
vendors as soon as practical after the report is received. Extenuating 
circumstances, such as active exploitation, threats of an especially 
serious (or trivial) nature, or situations that require changes to an 
established standard may result in earlier or later disclosure. US-
CERT's goal is to balance the need of the public to be informed of 
security vulnerabilities with the vendors' need for time to respond 
effectively. The final determination of a publication schedule is based 
on the best interests of the overall community.
    US-CERT provides Federal agencies and the public with actionable 
information regarding zero-day exploits in the form of technical and 
non-technical cyber alerts. These products are posted on the US-CERT 
public website, as well as distributed through the National Cyber Alert 
System. Federal agencies receive this information at the same time it 
is disclosed to the public.
    The cyber alerts contain recommendations and work-around for risk 
mitigation. After coordinating with vendors and gathering as much 
technical and threat information as possible, US-CERT takes steps to 
notify end users about the vulnerability. US-CERT strives to disclose 
accurate, neutral, objective information focused on technical 
remediation and mitigation. Targeting a technical audience (system 
administrators or others who are responsible for securing and patching 
systems), the alert describes the vulnerability in some detail, 
providing sufficient information for the user to make an informed 
decision about the risk. US-CERT will reference other available 
information and correct misinformation when possible.
    US-CERT provides patch information and links for patches that can 
be downloaded as soon as they are available from the vendor. US-CERT 
does not create, nor does it endorse the use of third-party patches, 
for they are considered ``buyer-beware'' and could introduce new 
problems or unforeseen configuration issues. Instead, US-CERT 
recommends that all organizations consider their options carefully and 
work with the vendor when faced with a zero-day threat.

    Question 2: What is the role of Assistant Secretary Garcia in the 
FISMA process?
    Response: The Federal Information Systems Management Act (FISMA) 
directs OMB to maintain a Federal information security incident center 
to perform the following functions: 1) provide timely technical 
assistance to agency information system operators; 2) compile and 
analyze incidents that threaten information security; 3) inform agency 
information system operators about current and potential information 
security threats and vulnerabilities; and 4) consult with the National 
Institute of Standards and Technology (NIST), agencies or offices 
operating or exercising control over national security systems. It also 
requires all Federal civilian agencies to implement FISMA and to ensure 
the operation of a central Federal information security incident 
center. Although FISMA assigns this function to OMB, the Director of 
OMB has, in turn, issued guidance to Federal departments and agencies 
stating that DHS' US-CERT performs these responsibilities, which is 
under the leadership of Assistant Secretary Garcia.1
    FISMA requires all Federal civilian agencies to notify the National 
Cyber Security Division (NCSD)/US-CERT of any data breaches, 
unauthorized access, or suspicious activity, including the loss of 
personally identifiable information (PII) within one hour of discovery. 
US-CERT collects this information to identify trends and provides 
regular reports to OMB. NCSD is promoting the need for Federal agencies 
to commit adequate resources to strengthen their networks, and to 
utilize robust technology security requirements in the procurement 
process combined with reasonable security practices.

    Question 3: In your experience, what percentage of governmental 
network security weaknesses are technology based and what percentage is 
based upon the failure to follow necessary protocols and procedures? In 
other words how many weaknesses are based on a lack of the proper 
security tool and which are based on network operator error?
    Response: All Federal agencies face ongoing challenges to maintain 
the security of their systems, which include both addressing security 
weaknesses and ensuring that processes and procedures are in place and 
followed to maintain security.
    Based on the experience of NCSD/US-CERT, the two greatest 
weaknesses in Federal government networks stem from the inherent 
vulnerabilities in operating systems, application software, and/or 
protocols, as well as the lack of user training/education. New exploits 
for vulnerable technology are discovered, targeted and exploited on a 
daily basis. In addition, end users are many times the greatest 
weakness, as they continually open unsolicited e-mail, respond to 
unsolicited e-mail, are sometimes targeted by e-mail, and visit 
malicious websites that can lead to intrusions.
    The NCSD/US-CERT maintains a number of programs and initiatives 
that focus on increasing security across the Federal government, which 
serve to address security weaknesses, improve awareness about good 
security practices, enhance coordination during a cyber event, and 
increase collaboration among Federal operational security teams. An 
example of this is the Government Forum of Incident Response and 
Security Teams, which is comprised of over 400 members from Federal 
Operational Security Teams, Chief Information Security Officers, and 
information security policy makers. In addition, the National Cyber 
Response Coordination Group (NCRCG) comes together for National 
Response Plan implementation or incident coordination. The NCRCG is 
comprised of cyber security experts from all of the cabinet 
departments, and facilitates inter-agency coordination activities in 
response to major cyber incidents affecting the public or private 
sector.

                                 <all>

</pre></body></html>
